<html>
<title> - [H.A.S.C. No. 113-21] THE U.S. NUCLEAR DETERRENT: WHAT ARE THE REQUIREMENTS FOR A STRONG DETERRENT IN AN ERA OF DEFENSE SEQUESTER?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
                         [H.A.S.C. No. 113-21] 
                      THE U.S. NUCLEAR DETERRENT: 
                       WHAT ARE THE REQUIREMENTS 
                      FOR A STRONG DETERRENT IN AN 
                       ERA OF DEFENSE SEQUESTER?

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 19, 2013


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
  

                  U.S. GOVERNMENT PRINTING OFFICE
80-191                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7017001f301305030418151c005e131f1d5e">[email&#160;protected]</a>  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado               LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
JOE WILSON, South Carolina           JOHN GARAMENDI, California
MICHAEL R. TURNER, Ohio              HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN FLEMING, Louisiana                  Georgia
RICHARD B. NUGENT, Florida           ANDRE CARSON, Indiana
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
                         Tim Morrison, Counsel
                         Leonor Tomero, Counsel
                      Eric Smith, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Tuesday, March 19, 2013, The U.S. Nuclear Deterrent: What Are the 
  Requirements for a Strong Deterrent in an Era of Defense 
  Sequester?.....................................................     1

Appendix:

Tuesday, March 19, 2013..........................................    27
                              ----------                              

                        TUESDAY, MARCH 19, 2013
  THE U.S. NUCLEAR DETERRENT: WHAT ARE THE REQUIREMENTS FOR A STRONG 
               DETERRENT IN AN ERA OF DEFENSE SEQUESTER?
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
  Member, Subcommittee on Strategic Forces.......................     2
Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Blair, Dr. Bruce G., President, World Security Institute.........     6
Krepinevich, Dr. Andrew F., Jr., President, Center for Strategic 
  and Budgetary Assessments......................................     4
Payne, Dr. Keith B., Professor and Head, Graduate Department of 
  Defense and Strategic Studies, Missouri State University.......     3

                                APPENDIX

Prepared Statements:

    Blair, Dr. Bruce G...........................................    69
    Cooper, Hon. Jim.............................................    34
    Krepinevich, Dr. Andrew F., Jr...............................    49
    Payne, Dr. Keith B...........................................    35
    Rogers, Hon. Mike............................................    31

Documents Submitted for the Record:

    ``Modernizing U.S. Nuclear Strategy, Force Structure and 
      Posture,'' a May 2012 Report by the Global Zero U.S. 
      Nuclear Policy Commission (Gen (Ret.) James E. Cartwright, 
      Chair; Amb. Richard Burt; Sen. Chuck Hagel; Amb. Thomas 
      Pickering; Gen (Ret.) Jack Sheehan; and Dr. Bruce Blair, 
      Study Director)............................................    85
    ``Senior Military and Defense Officials Who Disagree with 
      Global Zero,'' a Subcommittee Staff Paper..................   126
    Testimony of Gen (Ret.) James E. Cartwright..................   111

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................   147
    Mr. Rogers...................................................   131


  THE U.S. NUCLEAR DETERRENT: WHAT ARE THE REQUIREMENTS FOR A STRONG 
               DETERRENT IN AN ERA OF DEFENSE SEQUESTER?

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                           Washington, DC, Tuesday, March 19, 2013.
    The subcommittee met, pursuant to call, at 4:09 p.m., in 
room 2212, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. The House Armed Services Committee's 
Subcommittee on Strategic Forces will come to order. This 
rescheduled hearing has been delayed a week, but I do 
appreciate the patience of our panelists for the storm that 
didn't happen, but we tried.
    It is on an important topic, ``The U.S. Nuclear Deterrent: 
What Are the Requirements for a Strong Deterrent in an Era of 
Defense Sequester?'' And we have a distinguished group of 
experts to help us consider the subject. They are Dr. Keith 
Payne, Professor and Head, Graduate Department of Defense and 
Strategic Studies, Missouri State University; Dr. Andrew 
Krepinevich--did I say that correctly--President, Center for 
Strategic Budgetary Assessments; and Dr. Bruce Blair, Co-
founder of Global Zero.
    This Nation has some key decisions ahead of it. We find 
ourselves in the position of having to recapitalize our entire 
deterrent at exactly the time that every other nation is 
growing or modernizing its nuclear forces, but we have absorbed 
reductions in our defense budget of $487 billion and we are now 
18 days into President Obama's defense sequester that will take 
another half-trillion dollars out of our defense budget over 
the next decade.
    Our nuclear deterrent is the most cost-effective and proven 
means of promoting peace for the American people and their 
allies, but we have not been investing in it in a responsible 
way. Our real and potential adversaries and competitors 
understand this. Russia, for instance, has tested three new 
ICBMs [intercontinental ballistic missiles] during the New 
START [Strategic Arms Reduction Treaty] Treaty entered into 
force 2 years ago. The People's Republic of China is preparing 
to put to sea a ballistic missile submarine and sea-launched 
ballistic missile and it appears to be readying three new long-
range ballistic missiles capable of attacking the United 
States. I note that Russia's Vladimir Putin tells his people 
that, ``nuclear weapons remain the main guarantee of Russia's 
sovereignty and its territorial integrity. It plays a key role 
in maintaining global and regional stability and balance.''
    President Obama, however, says in the State of the Union 
Address last week or last month that, ``we will engage Russia 
to seek further reductions in our nuclear arsenals . . . 
because our ability to influence others depends on our 
willingness to lead.''
    Are they both right? I think General Welch, former 
Strategic Air Command commander and former Chief of Staff of 
the U.S. Air Force, had it right when he said, ``the only basis 
for the idea that drastically reducing the number of nukes we 
had would magically make us safer and help eliminate other 
nuclear weapons is hope, but hope is not a plan and hope is not 
a basis for security. Hope does not defend us. Leading the 
world to zero nuclear weapons is at best a fairy tale.''
    There is a rising consensus from General Scowcroft, 
Secretaries Perry, Schlesinger, Shultz, and Senator Nunn that 
the one-time frenzy of a world without nuclear weapons is 
little more than a fantasy, and a dangerous one at that. For 
example, the so-called Gang of 4's recent Wall Street Journal 
piece is a dramatic shift from the original 2007 piece. This is 
welcome. We are at a crisis point where we must focus on 
eminent threats from North Korea and Iran.
    So, I look forward to examining these matters today. They 
are important to the Nation's security and they are important 
matters as we will tackle in our markup of the Fiscal Year 2014 
National Defense Authorization, and with that, I yield to my 
friend and colleague from Tennessee, Mr. Cooper, for any 
opening statement that he may have.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 31.]

STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM TENNESSEE, 
        RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Cooper. Thank you, Mr. Chairman, and thank the 
distinguished witnesses. What we have here today is like a 
battle of the Ph.D.s, so I look forward to the different 
testimonies.
    Mr. Chairman, I, too, saw the article in the Wall Street 
Journal from Secretary Shultz, Secretary Perry, Foreign 
Secretary Kissinger, and Former Senator Sam Nunn, and I had a 
little more positive interpretation of it. First of all, I saw 
four very distinguished Americans who were agreeing on a 
bipartisan basis that we should at least look at reductions, 
and these, granted, need to be done in a balanced and 
responsible way, but I thought overall they were very bullish 
on the prospect that we could lead the world to a better place, 
and I look forward to hearing the expert testimony of the 
witnesses on this subject.
    Mr. Chairman, with your consent, I would like to insert my 
statement for the record as well as the testimony of General 
Cartwright, who is unable to be with us today.
    [The prepared statement of Mr. Cooper can be found in the 
Appendix on page 34.]
    [The prepared statement of General Cartwright can be found 
in the Appendix on page 111.]
    Mr. Rogers. Without objection, so ordered.
    Other members of the committee are advised that they can 
offer their opening statement for the record, and with that, we 
will go to Dr. Keith Payne for his opening statement that will 
be summarized in five minutes. Dr. Payne.

 STATEMENT OF DR. KEITH B. PAYNE, PROFESSOR AND HEAD, GRADUATE 
  DEPARTMENT OF DEFENSE AND STRATEGIC STUDIES, MISSOURI STATE 
                           UNIVERSITY

    Dr. Payne. Thank you, Chairman Rodgers and Ranking Member 
Cooper. It is a pleasure and honor to be here. I need to start 
out by saying I am speaking as an individual and not for any of 
the institutions with which I am associated.
    Let me start by noting that there are numerous proposals 
for deep U.S. nuclear reductions. They typically are based on 
an approach to deterrence known as minimum deterrence, and the 
basic contemporary argument is that a small number of U.S. 
nuclear weapons is adequate for deterrence because nuclear 
threats from China and Russia no longer are plausible and 
because nuclear weapons are irrelevant to the priority threat 
we face; that is, nuclear terrorism.
    Consequently, so the argument goes, the U.S. can, with 
little or no risk, undertake deep nuclear reductions that will 
reduce nuclear dangers, advance U.S. nonproliferation goals, 
and save many billions of dollars.
    My examination of these and other minimum deterrence claims 
suggests that they are dubious at best. For example, the claim 
that nuclear deterrence is irrelevant to terrorism is false. 
Terrorists can be deterred in some circumstances, including by 
deterring their state sponsors, and nuclear deterrence 
certainly may help in that regard.
    In addition, the promise of substantial savings from 
nuclear reductions is again false. In fact, the minimum 
deterrence recommendation that the U.S. deter with conventional 
forces in place of nuclear would likely require a net increase 
in spending.
    Similarly, the claim that U.S. nuclear weapons are of 
little relevance to U.S. relations with Russia and China misses 
the facts that Russia and China both point to us as enemy 
number one, make explicit threats against close U.S. allies and 
emphasize the great military and political value that they 
place on nuclear weapons. They are not following our 
antinuclear lead.
    It also is impossible to claim with any credibility that 
deterrence will work reliably at low nuclear force levels, nor 
that U.S. conventional threats can substitute reliably for 
nuclear weapons. No one knows if the first of these claims is 
true, and all evidence suggests the second claim is false.
    Further, deep U.S. nuclear reductions would encourage some 
of our allies to go nuclear themselves. While emphasizing our 
advanced conventional forces leads some opponents to emphasize 
more the great need that they see for nuclear weapons. 
Consequently, my conclusion is that minimum deterrence is 
likely to promote nuclear proliferation coming and going. And 
the claim that nuclear reductions will reduce the prospect for 
nuclear accidents is contrary to the abundant available 
evidence, over five decades, that there is no historic 
correlation between the number of weapons and the number of 
accidents.
    Finally, deep U.S. nuclear reductions would degrade those 
U.S. force characteristics likely to be most important for 
deterrence. Those characteristics are the force flexibility, 
diversity, and resilience.
    The ability of our force to adapt as necessary for 
deterrence across many plausible scenarios and surprising 
threats depends on their flexibility and their diversity. 
Moving to a much reduced nuclear arsenal that degrades those 
qualities is precisely the wrong way to go for deterrence.
    In short, the deep reductions recommended by minimum 
deterrence would not likely lead to the promised benefits but 
instead would degrade our capability to adapt our deterrence to 
new and future threats, encourage some opponents towards 
nuclear arms buildups and to challenge our deterrence 
strategies and encourage some allies to acquire their own 
nuclear deterrence and thereby potentially inspire a possible 
cascade of nuclear proliferation.
    The same evidence that demonstrates the serious flaws of 
minimum deterrence suggests three contemporary and I believe 
more realistic guidelines. One, U.S. nuclear forces must be of 
sufficient size and diversity to provide the flexibility and 
resilience necessary for deterrence across a wide and shifting 
array of threats. Two, this flexibility and diversity and 
resilience of U.S. forces is threatened as the nuclear arsenal 
becomes ever smaller. Along these lines, former STRATCOM [U.S. 
Strategic Command] Commander General Chilton said in 2010 that 
to preserve flexibility, we should not move below the 1,550 
deployed warhead ceiling of the New START Treaty. And three, 
assuring our allies is as important as deterring our foes and 
depends again on our possession of the diverse and flexible 
nuclear capabilities that many allies deem necessary for their 
assurance.
    Let me conclude by noting that my emphasis on the need for 
a U.S. nuclear arsenal that is large enough and diverse enough 
to provide flexibility and resilience is completely consistent 
with the conclusions of the bipartisan Congressional Strategic 
Posture Commission that was headed by Dr. Perry and Dr. 
Schlesinger, a commission that was created with help of the 
House Armed Services Committee.
    Thank you.
    [The prepared statement of Dr. Payne can be found in the 
Appendix on page 35.]
    Mr. Rogers. Thank you.
    Dr. Krepinevich.

STATEMENT OF DR. ANDREW F. KREPINEVICH, JR., PRESIDENT, CENTER 
            FOR STRATEGIC AND BUDGETARY ASSESSMENTS

    Dr. Krepinevich. Chairman Rogers, Ranking Member Cooper, 
members of the subcommittee, thank you for the opportunity to 
testify here today on the subject of U.S. nuclear requirements. 
First, let me applaud the subcommittee. This issue, to me, is 
extremely important. The U.S. nuclear arsenal is a strategic 
asset of the United States. It has been a strategic asset for 
nearly 70 years now, and any decision to make major changes in 
the size or composition of that arsenal merits thorough 
consideration and study.
    From my perspective, the requirements in terms of looking 
at reductions to the arsenal, they should be examined in terms 
of our security objectives, which I view as two overarching 
objectives. One is to prevent the use of nuclear weapons in 
general, and specifically, against ourselves and our allies and 
partners, and also to prevent the use of nuclear weapons as 
instruments of coercion, sometimes referred to as nuclear 
blackmail.
    And second, in the event that this fails and that nuclear 
weapons are used, to terminate the use of such weapons as 
quickly as possible in a manner that best serves U.S. 
interests.
    Now, both the Obama administration and a number of experts, 
as you have mentioned, have made the point that these 
objectives can best be achieved by significant reductions 
beyond those to which we are committed in the New START Treaty. 
Based on the analysis I have seen, my belief is that this 
assertion is open to question, and my testimony examines two 
overriding questions with respect to this issue. First, I am 
skeptical that a reduction in U.S. nuclear forces will lead 
other nuclear powers to reduce their arsenals or aspiring 
nuclear powers to forego acquiring nuclear weapons, and I would 
cite four observations.
    First, so far, there hasn't been a phenomenon of follow-
the-leader. Both United States and Russia dramatically reduced 
their nuclear arsenals since the end of the Cold War, and as 
Dr. Payne pointed out, many nuclear powers are modernizing and/
or expanding their nuclear arsenals.
    Second, to the extent that we reduce our nuclear forces, 
the issue of extended deterrence or the nuclear umbrella comes 
into question, which is to say to what extent can allies and 
partners rely on a diminishing U.S. nuclear arsenal to provide 
the kind of protection in terms of deterrence and also 
protection against coercion?
    Third, we, as my colleagues have pointed out, have an 
enormous advantage in conventional forces, something we didn't 
have during the Cold War, and of course we took the lead in the 
1950s and relied on nuclear weapons to help offset that 
conventional inferiority. Well, now, others are following the 
leader in a different way. We have the Russians and the 
Pakistanis, in particular, increasing their emphasis, 
increasing their reliance on nuclear forces, not just for 
deterrence but for warfighting purposes as well.
    And finally, the problem of unintended consequences. You 
know, there is a question that, you know, at what point in 
terms of force reductions do we go, and the issue is, do we at 
some point encourage others to follow us and is that a good 
thing, or do we encourage others to build up to our level and 
create a more complicated situation than the one we have right 
now.
    The second issue is, is would a reduction in U.S. nuclear 
forces discourage the use of nuclear weapons, and I cite an 
observation by a former French Foreign Minister, Hubert 
Vedrine, who says the country that possesses the bomb does not 
use it and automatically enters the system of deterrence and 
doesn't take absurd risks.
    I have four observations with respect to this issue, which 
is to say a reduction in U.S. nuclear forces would discourage 
the use of nuclear weapons.
    As I mentioned first, other countries see a use in nuclear 
weapons beyond deterrence, and specifically, the cases are 
Russia and Pakistan, which have integrated nuclear use into 
their doctrines.
    Second, not all decisionmakers who control nuclear weapons 
are, I think, what we would consider to be rational or 
necessarily rational, and in my testimony I cite a number of 
instances ranging from Adolf Hitler to Saddam Hussein, Fidel 
Casto, Nikita Khrushchev, where their behavior would not quite 
equate to what I think we would consider to be mature, rational 
behavior that was not prone to taking absurd risks.
    Third, there is the issue of structural instability, and I 
will just briefly mention here, the point that there are some 
areas in proliferation where even if both sides desire to avoid 
nuclear use, they risk, quite frankly, a very unstable 
situation, crisis and stability, and finally, an end-player 
competition. The lower we go to the extent that we bring others 
along with us, we have a competition among many states, and in 
that situation, we have to rethink the dynamics given that 
during the Cold War we had a two-state competition.
    So, very briefly, it seems to me that while there is 
general agreement on the basic security objectives that we 
ought to be pursuing, the devil is in the details, and there is 
a great divergence of opinion as to how best to achieve these 
objectives, and what I see is a remarkable lack of thinking 
about prospective real-world situations. A lot of abstract 
thinking, very little real-world thinking, what I would call 
thinking that is associated with what the Defense Department 
would call it an assessment, and it is this kind of thinking, I 
think, that is really needed before we take big steps in terms 
of altering the size and structure of our nuclear forces.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Krepinevich can be found in 
the Appendix on page 49.]
    Mr. Rogers. Thank you, Dr. Krepinevich.
    Dr. Blair is recognized 5 minutes to summarize his opening 
statement.

  STATEMENT OF DR. BRUCE G. BLAIR, PRESIDENT, WORLD SECURITY 
                           INSTITUTE

    Dr. Blair. Thank you, Congressman Rogers and Congressman 
Cooper, and other distinguished members, for inviting me here 
today. I am very honored and pleased to testify before you.
    My bottom line judgment is that continuing U.S. nuclear 
reductions would produce substantial benefits and carry no 
risks.
    The Global Zero Commission report issued last year by 
General Cartwright and others, including Senator Hagel, 
recommended a force of 900 total nuclear weapons, an 80-percent 
reduction from the current stockpile, and assessed that force 
to be more than adequate to meet strategic requirements. As 
General Cartwright put it, ``this would not be a small nor 
humble force designed for minimal deterrence. It would hold at 
risk all of the major categories of facilities in all countries 
considered to pose a potential WMD [Weapon of Mass Destruction] 
threat to the United States.''
    Nine hundred total weapons is not a small arsenal. 
Sometimes we lose perspective on these things. Nine hundred 
weapons possess enormous destructive power, far more than 
necessary to impress any potential rational foe. For the 
irrational foes, such as fanatical terrorists, the level of 
American nuclear armaments would make little or no difference 
at all.
    So why are these deep cuts possible and what are the 
benefits? First and foremost, obviously, the Cold War ended 20 
years ago. The requirements of deterrence are obviously much 
lower between countries that are no longer enemies and that no 
longer believe either side intends to attack the other.
    The decline of mutual threat in our primary relationship 
over the last 25 years has enabled our two countries to achieve 
unprecedented levels of cooperation and mutual benefits in a 
multitude of areas, including cutting their nuclear stockpiles 
by 75 percent since the end of the Cold War, but these legacy 
arsenals remain still very large and there is ample room for 
further cuts.
    Second, reducing the nuclear stockpiles feeds on itself in 
a positive way. As both sides reduce their nuclear arms, 
nuclear-related targets go away along with the need to hold 
them at risk, so this is a dynamic that has resulted in massive 
reductions in weapons and targets and greatly undercut the 
rationale for new weapons.
    Gentlemen, we have literally reversed the arms race.
    Third, smart targeting has made further nuclear possible 
cuts without sacrificing any coverage. I will give you just one 
example. Not very long ago, our nuclear targeteers were 
planning to lay down 10 weapons on one very high value command 
and control target, command post. Today, they have, as a result 
of an intelligence breakthrough, managed to figure out how to 
target that facility with two weapons.
    As it was noted, we also have conventional superiority that 
has reduced our reliance on nuclear weapons. They have given us 
useable options, much more useable than nuclear weapons, 
increasing our credibility in dealing with threats that 
previously required a nuclear response and created yet more 
room for further reductions.
    Fourth, this conventional rebalancing has really 
strengthened the credibility of our extended deterrence to 
allies such as South Korea. Remember, South Korea, up until the 
1980s, needed help from U.S. tactical nuclear weapons to deal 
with the North's artillery threat. Today, South Korea has 
conventional superiority over the North, and the need for U.S. 
nukes for warfighting on the Peninsula has essentially gone by 
the boards.
    The North's fledgling threat has, of course, revised 
somewhat the need to wave our nuclear umbrella over the allies, 
but don't forget, we just possess overwhelming nuclear 
superiority over the North, and even after deep cuts, that will 
remain.
    Fifth, the continuing reduction presents opportunities for 
reconfiguring our strategic forces and our posture in ways that 
really strengthen stability. Let me give you an example. A key 
benefit is that cyber warfare threats, which are growing, can 
be mitigated as a result. By eliminating forces that have to be 
maintained on once ready alert, like the Minuteman [LGM-30 
intercontinental ballistic missile] forces, and by eliminating 
our reliance on launch on warning to protect those forces, we 
can completely eliminate the danger that exists today that 
unauthorized actors could trigger a launch that was not 
intended or block the execution of a legitimate launch ordered 
from the President.
    Six, continuing reductions, even deep cuts, are not 
expected to stimulate China or other countries to rush to 
parity. That is, I think, the prevailing assessment of the 
intelligence community. In the case of China, General Kehler 
recently testified that, ``I do not see, nor has the 
intelligence community reported to me that China is seeking to 
have some kind of numeric parity with the United States or with 
Russia.''
    Of course, you know, an effort to rush to parity is 
possible, though very unlikely. In such an event, it would be 
easily detectable, would take many years, and we could adjust 
accordingly.
    It would be extremely beneficial if continuing reductions 
in the U.S. and Russian nuclear arsenals bring China and the 
other nuclear weapons countries to the negotiating table. That 
is an important goal for this country. A multilateral 
negotiations must be initiated soon to address the multitude of 
nuclear dangers that exist outside the U.S.-Russia relation in 
places like South Asia.
    Seventh, and I am coming to the end here, continuing U.S. 
nuclear arms reductions would affirm the U.S. support for the 
Non-Proliferation Treaty, which continues to be, in my view, an 
indispensable tool in the international community's effort to 
prevent and roll back proliferation.
    The days of U.S. and Russian lip service to the disarmament 
clause of the treaty are over if they hope to preserve and 
strengthen this treaty in the face of growing proliferation 
pressures around the world.
    Mr. Rogers. Dr. Blair, you need to wind it down. You have 
gone about 2 minutes over.
    Dr. Blair. Okay. Thank you. I just have one paragraph.
    Last, this hearing seeks to set priorities for the U.S. 
program under sequestration. I would argue that the size of the 
U.S.--that we have plenty of time and margin here, that the 
size of the U.S. arsenal and scale of its reduction or 
modernization are less important than the operational postures 
today of the forces and the cohesion of the system of command 
and control.
    My first priority would be to ensure a full-scale, thorough 
review of cyber security of all nuclear networks to identify 
and remove cyber warfare threats that could compromise the 
integrity of these networks, that is my first priority. It is 
essential not to sacrifice this on the altar of sequestration.
    And lastly, my second priority under sequestration would be 
to secure and dispose of excess surplus, weapons-grade nuclear 
materials around the world.
    Thank you.
    [The prepared statement of Dr. Blair can be found in the 
Appendix on page 69.]
    Mr. Rogers. Thank you, Dr. Blair.
    We now turn to questions. Each member will be allowed 5 
minutes, and I will start with the questions myself.
    Dr. Blair, you just made reference to General Kehler's 
testimony in which he said that China was not, based on his 
exposure to intelligence, ``rushing'' to parity with the United 
States. Would you acknowledge that China is expending a larger 
percentage of their GDP in missile system technology than we 
are?
    Dr. Blair. I don't know.
    Mr. Rogers. Would you acknowledge that their volume of 
tactical regional weapons far exceeds our capacity?
    Dr. Blair. Yes----
    Mr. Rogers. China's.
    Dr. Blair [continuing]. I would dispute that. I think the 
total size of the Chinese arsenal is in the range of--there is 
a debate on this, I think, but the debate is whether the total 
arsenal is----
    Mr. Rogers. How about Russia's?
    Dr. Blair [continuing]. Low hundreds or mid hundreds.
    Mr. Rogers. How about Russia's?
    Dr. Blair. 150. So we have 700 tactical nuclear weapons. 
China has far fewer than that.
    Mr. Rogers. What about Russia's?
    Dr. Blair. Russia probably has on the range of 1,500 to 
2,000----
    Mr. Rogers. Compared to ours.
    Dr. Blair [continuing]. Deployed tactical nuclear weapons 
compared to our 700. We have a comparable advantage in reserve 
strategic weapons.
    Mr. Rogers. Would you agree that Russia is spending a 
larger percent of their GDP on missile system technology than 
we are, capability?
    Dr. Blair. I would question that.
    Mr. Rogers. The answer is ``yes.'' The answer is ``yes'' on 
China and answer is ``yes'' on Russia.
    Dr. Blair. I still would question that. I would have to go 
back and study that. Let me make a point about that. The United 
States spends more on intelligence alone every year than the 
entire Russian defense budget.
    Mr. Rogers. My point in talking about the percentage of GDP 
spent on missile capability----
    Dr. Blair. But, sir----
    Mr. Rogers [continuing]. Is certainly an indicator of their 
intent and their seriousness about the technology.
    Dr. Blair. I don't think that is very good indication.
    Mr. Rogers. Dr. Blair, your report that you made reference 
in your testimony, you say, was based on considerable detailed 
analysis. Would you make this detailed analysis available to 
this committee?
    Dr. Blair. Sorry, detailed analysis of?
    Mr. Rogers. For your report that you referenced in your 
testimony. You say it is based on considerable detailed 
analysis. Would you make that analysis available to this 
committee?
    Dr. Blair. I think the report itself, which is 22 pages 
long, is fairly detailed.
    Mr. Rogers. So that is the analysis you are making 
reference to. You say in the report itself it is based on 
analysis. I would assume that means a body of evidence.
    Dr. Blair. The report is based on analysis and the 
deliberation of a distinguished group of authors, including 
former head of strategic command, including Senator Hagel now 
Secretary of Defense.
    Mr. Rogers. The reason why I am asking is because when I 
look at your report, about half the footnotes are footnotes 
referencing your own writings. Why is that?
    Dr. Blair. Because I have done the most analytical and 
scholarly work in this area.
    Mr. Rogers. Are there other experts that you relied on?
    Dr. Blair. Well, those footnotes refer to many, many other 
experts' analyses.
    Mr. Rogers. That supported your views, the other experts?
    Dr. Blair. Some do, some don't.
    Mr. Rogers. Okay. Dr. Blair, general officers from the 
current Commander of STRATCOM, General Kehler, to the former 
Commander of STRATCOM, General Kevin Chilton, Lieutenant 
General Kowalski to retired Major General Chambers and many 
others who are recently part of the senior leadership of the 
Department of Defense have rejected Global Zero's 
recommendations, and I will insert a staff paper into the 
record on that point without objection.
    [The information referred to can be found in the Appendix 
on page 126.]
    Mr. Rogers. What do you know about the subject matter that 
these general officers don't know?
    Dr. Blair. I think the argument stands on its face, 
Congressman. You can read through it. I just gave my testimony. 
If you find that the logic and the arguments and the points 
don't stand up to your scrutiny or anyone else's, I am happy to 
have that debate, but I made the case for why, and General 
Cartwright and others subscribe to this, why a 900-nuclear-
weapons force is not a small minimal deterrent force.
    Mr. Rogers. Dr. Payne, would you care to comment as to why 
you believe those commanding generals differ with the findings 
of the report?
    Dr. Payne. Well, because I believe that they are in 
consensus that they need to protect the flexibility, the 
resilience, the adaptability of the nuclear arsenal, and going 
down to very low numbers, such as is recommended in that 
report, has a number of casualties, but one of the casualties 
of going down to very low numbers tends to be exactly the 
flexibility and the resilience of the U.S. nuclear arsenal. And 
even if one can claim rightly that the U.S. nuclear arsenal can 
deter today at some set number, even if you grant that, the 
question is whether you can deter next year, the year after 
that, and 10 years from now. And the need for flexibility and 
resilience in the arsenal comes exactly from that. We need to 
be able to deter over the next two decades, and those 
characteristics of the arsenal are directly related to its size 
and its diversity. So I believe that the commanders of STRATCOM 
are interested in preserving the diversity of the U.S. arsenal 
so that we can safeguard our ability to deter war.
    Mr. Rogers. Dr. Krepinevich, do you care to comment as to 
why those commanding generals would differ with their findings 
of the report?
    Dr. Krepinevich. Well, Mr. Chairman, I don't know why they 
would. On the other hand, I would like to think that perhaps 
their logic included considerations along the lines of it is 
probably a lot easier to reduce the size of nuclear forces than 
to build them back up again. I think there will be a real 
prejudice against that, particularly given our financial 
situation right now and the fact that it is not likely to be 
resolved anytime soon.
    Second, as Dr. Payne said, I think you have to look long-
term. We don't make changes in our nuclear arsenal overnight, 
and when you are thinking about what kind of a nuclear force 
you need, 5 or 10 years out into the future is not a long way 
to look.
    And I would say the third has to do with what kind of 
contingencies do we see our nuclear forces being brought to 
bear, and we are so far away from the Cold War, and you know, 
during the Cold War, we eventually got to the point where it 
was us and the Soviets and it was Armageddon, and you know, 
once it started, there wasn't, you know, much sense thinking 
about a world after or a day after.
    Now, I think you can look at a range of plausible 
contingencies, and certainly that's been my experience in 
talking with senior military leaders and senior officials both 
in this Administration and the last administration. There is 
a--there are a range of contingencies, and it is not 
Armageddon, it is not us and the Russians, and until you think 
through those contingencies and until you think through the 
fact that, as Dr. Blair, I think, pointed out in his study, 
there is some--I wouldn't go as far as he would, but there is 
some potential substitutability of precision conventional 
weapons and cyber weapons for targets that we used to reserve 
for nuclear weapons. Missile defenses are much more capable now 
than they were a generation ago.
    We have things like directed energy where remarkable 
progress is being made, and until you really think through 
those contingencies and look at the dynamics, the steady state 
dynamics, the crisis dynamics, and even the warfighting 
dynamics, because there can be conflicts between other 
countries, think India-Pakistan, God forbid, Israel and Iran, 
where we would have to look at that as a third party and try 
and determine how to keep maybe a crisis from getting out of 
control, and if it does, how to stop the bleeding, and also, 
quite frankly, what the world looks like the day after.
    So, I would like to think, having talked most recently to 
General Kehler about these kinds of scenarios, that, you know, 
that is where the effort is right now, and if so, then I 
applaud it.
    Mr. Rogers. Thank you very much. The Chair now recognizes 
the ranking member for any questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman. I know that this 
subcommittee, as currently constituted, is in its early days, 
but I am somewhat disappointed in the adversarial tone that I 
heard in your comments so far in this hearing. I hope this is 
not an indication of forthcoming behavior because I know we are 
both from the same region, we know what good manners are like, 
and all of these witnesses have been kind enough to come, some 
on short notice, and there was a rescheduling involved as well, 
so I hope that we can approach these vitally important national 
issues with an air of civility and calm as we approach some 
very serious decisions here.
    I am curious because I think this Global Zero cause has 
been misnamed. It sounds like it should have been called like 
Global 900, and the cause on the other side should perhaps be 
called, I don't know, what Global 30,000 or Global 20,000 or 
Global 10,000, you know, some much larger number. The number we 
are at right now, given the curious counting rule, seems to be 
1,550, and surely no one thinks that is a perfect number.
    So, as Dr. Krepinevich just mentioned with the advances in 
conventional, cyber and missile defense technologies, we need 
to continually revise the effectiveness of what arsenal we 
have, and he also noted, I thought quite wisely, that whatever 
arsenal we have, maybe we should pay for. So, our adversaries 
are not unaware of that defense sequestration or inability to 
pay for even the recent wars in Iraq and Afghanistan.
    So, I think a comprehensive and calm look at this would 
indicate that let's figure out whether 900 or 1,000 or 1,100 or 
some number like that is an appropriate number. And it is a 
little bit awkward to have these hearings in an open setting, 
but I am kind of curious, I thought Dr. Blair gave an excellent 
list of possible uses for the weapons we have got, and I would 
like to ask Dr. Payne and Dr. Krepinevich which targets, in 
addition to those that Dr. Blair mentioned, are essential to be 
targeted and unable to be targeted with an arsenal of 900 
weapons.
    Dr. Payne, do you want to go first?
    Dr. Payne. Yeah, let me start off by saying that the 
counter or the opposite poll of 900 weapons certainly doesn't 
need to be 10,000 or 30,000.
    Mr. Cooper. Well, what number do you propose?
    Dr. Payne. Well, when I was in the Pentagon, the range that 
we reached, following a good bit of analysis, was 1,700-2,200, 
which became the basis for the Moscow treaty.
    Mr. Cooper. Was there any opposition to that reduction when 
you made that recommendation?
    Dr. Payne. It became a formal treaty and received----
    Mr. Cooper. But there was some opposition to it.
    Dr. Payne. The opposition was not great, let's put it that 
way. So that the distinction between those who are favorable 
towards nuclear zero and those who are skeptical isn't the 
difference between 900 weapons and 10- or 30,000 weapons.
    Mr. Cooper. Why don't we call it Nuclear 900 at least 
during my questioning?
    Dr. Payne. Yes, sir. And let me also add that General 
Chilton in 2010 gave a number that he said he would be more 
comfortable with to preserve flexibility of the U.S. arsenal 
and that was 1,550, so those are the ranges that folks are 
talking about at this point, sir.
    And then you asked the question about what kind of 
capability might the United States need for deterrence 
purposes.
    Mr. Cooper. I said what additional targets.
    Dr. Payne. Yeah. Well, in a sense, the answer to that 
question is, it depends on what kind of threat is necessary to 
deter opponents, and those kind of threats, that kind of 
information can change over time. Harold Brown, back during the 
Cold War, said the kind of capabilities we need to deter the 
Soviet Union happened to be political leadership, military 
capabilities. Those included very deeply buried targets. So the 
kind of weapons that were necessary to threaten in those days 
had to be able to threaten those kind of targets. In the future 
there may be any number of different types of targets that need 
to be threatened for deterrence purposes.
    Mr. Cooper. Dr. Krepinevich, do you have a more specific 
answer?
    Dr. Krepinevich. I am not a nuclear targeteer, Congressman, 
but what I would say, and I think this is where Dr. Blair has 
been trying to help, is I am reminded of a quote from a British 
admiral, Jackie Fisher, who once said a lot of folks want to 
know how big the British Navy ought to be and what kind of 
ships we ought to have in it. He said the first thing you have 
to do is make up your mind how you are going to fight. He said, 
how many of us have made up our mind how we are going to fight? 
And then he said, how many of us even have minds? So he was 
being pretty sarcastic at the moment. But the point here is how 
are you going to deter, and if deterrence fails, how are you 
going to fight?
    And Dr. Payne points out that deterrence lies in the eye of 
the beholder, so on the one hand you have to--and we devoted an 
enormous amount of effort and thinking during the Cold War to 
understanding how the Soviet leadership calculated cost and 
benefit and risk. In fact, Kissinger in the late '60s and early 
'70s, when he was the NSC [National Security Council] advisor, 
the thing that he was most interested in getting from the 
intelligence community were the psychological profiles of the 
Soviet leadership. So that is point number one.
    And do we, you know, do we have that understanding, and you 
know, if you have the understanding of China in 2009, well, 
there is a new leadership in today, and as we know from our own 
leadership, you know, every leader is different, so have we a 
good understanding of how other nuclear powers calculate cost, 
benefit, and risk so we have a good idea of what is required to 
deter them, first.
    Second, if you look at Dr. Blair's report and the targeting 
list, again, I would be interested to know is that the target 
list for March 2013, because if we look at China, for example, 
China may have 100 nuclear weapons, they may have 500. The 
former commander of the Russian Strategic Rocket Forces, 
General Yesin, says he thinks they have 750 but maybe over 
1,000. So how confident are we that we know how many targets 
there are in China that we need to hold at risk, and how easy 
is it to hold a Chinese mobile missile launcher at risk? We 
played that game at close range in the first Gulf War and 
didn't have much success, so there is that issue.
    There is the issue of breakout. We used to worry a lot 
about breakout during the Cold War, which is why the SALT 
[Strategic Arms Limitation Talks] treaties limited launchers 
because we knew we couldn't count the warheads. Well, the 
Chinese have not only a lot of launchers but a lot of missiles 
that now carry--or are armed with conventional warheads. Do we 
worry about whether they can swap those out in place of nuclear 
warheads and in effect what during the Cold War we describe as 
breakout?
    So, again, I really do think, you know, it is a case of 
really sitting down and trying to think through the problem in 
a very careful way, given the stakes that are involved, not 
only in terms of security, but as you point out, Congressman, 
in terms of resources that are increasingly scarce before we 
decide, even within a ballpark figure, you know, what kind of 
nuclear posture we want and of course what kind of risk we are 
willing to take that is associated with that posture.
    Mr. Cooper. My time is limited. The chairman has already 
been very indulgent, but Dr. Kissinger said, I think, that even 
paranoids sometimes have real enemies, but he just joint-
authored this article which said that Washington--this is a 
quote, ``Washington should carefully examine going below New 
START levels of warheads and launchers.'' So that sounds like 
an indication that we should carefully examine this issue. The 
perfect number isn't determined yet, but here is Dr. Kissinger 
on record with George Shultz saying we should seriously 
consider this, so that is what this subcommittee is trying to 
do, and I think the more specific answers we can get on 
targeting and capabilities the better.
    Thank you, Mr. Chairman. I appreciate your indulgence.
    Mr. Rogers. I thank the gentleman. Gentleman, Mr. Nugent, 
is recognized for 5 minutes for any questions he may have.
    Mr. Nugent. Thank you, Mr. Chairman. I appreciate it. I 
thank the panel for being here. It is always good to hear 
divergent ideas. It is not a bad thing for all of us. But to 
Dr. Blair, I know that you mentioned in your report, 
particularly as it relates to Senator Hagel, then-Senator 
Hagel, and in particular with regards to the presidential 
directives negotiated in another round of bilateral arms 
reduction talks were implemented unilaterally, and Secretary of 
Defense, then Senator Hagel stated during his confirmation 
hearing, ``I don't agree with any recommendation that would 
unilaterally take any action to further reduce our nuclear 
warheads and our capability. Every option we must look at, a 
reaction we must take to reduce warheads or anything should be 
bilateral and should be verifiable and negotiated.''
    Do you agree with that?
    Dr. Blair. I do, and as a matter of fact, the analysis that 
we went through, which by the way, involved Tom Pickering, who 
was ambassador to Russia who knows a fair amount about the 
Russian leadership and the scene in Russia, that analysis 
proceeded on the assumption that we really needed to tighten up 
our treaty process to include all nuclear weapons so that some 
of these unknowns that are floating out there, tactical weapons 
owned by China or by Russia that have completely escaped 
previous regulation are now put in the basket, negotiated, 
verified, and monitored. You know, all these dramatic 
reductions that we have achieved since Ronald Reagan started 
the process in the 1980s have dropped from 70,000 weapons 
between us and the Soviets, down to about 16,000 between us 
today, have all been--the vast bulk of those reductions have 
been achieved unilaterally. There has never been any arms 
control agreement that has regulated the total stockpile of 
weapons in any country.
    Mr. Nugent. If I could----
    Dr. Blair. So these dramatic reductions have been based on 
unilateralism. What we are trying to do in this report is say 
let's put all the weapons into a basket----
    Mr. Nugent. Well, if I could claim my time.
    Dr. Blair [continuing]. And all the rest, and negotiate 
their reductions and closely verify and monitor them.
    Mr. Nugent. That is the key, verification. Are we in fact 
verifying our last treaty with Russia?
    Dr. Blair. Of course.
    Mr. Nugent. There has been no slip on verification.
    Dr. Blair. The last testimony I heard from authorities in 
this area, including General Kehler and Rose Gottemoeller who 
negotiated the treaty have been that there have not been--there 
have been intensive verification and no--and no significant 
lapses----
    Mr. Nugent. You cite presidential nuclear initiatives 
several times as an example of how further reductions and 
actions like de-alerting could be affected or effectuated, but 
you know, Russia is not in compliance with those initiatives. 
So, if they are not in compliance, are they cheating?
    Dr. Blair. Are you telling me that they are cheating on the 
New START agreement?
    Mr. Nugent. I am asking you are they cheating.
    Dr. Blair. You have more access to the authoritative answer 
to that question than I do.
    Mr. Nugent. Well, I would like to direct that--if you don't 
have an answer, I would like to direct that to Dr. Payne.
    Dr. Blair. As I said, recent testimony by authorities said 
no, they have not.
    Mr. Nugent. Dr. Payne.
    Dr. Payne. Yes, sir. The Russians, by their own statements, 
are in violation of the presidential nuclear initiatives of 
1990 and 1991, which includes continued Blackjack [Tupolev Tu-
160 strategic bomber] production which is in violation of the 
PNI [Presidential Nuclear Initiatives]. It includes retained 
battlefield nuclear weapons, atomic demolition mines in 
violation, it includes deployment of their Iskander [NATO 
designation SS-26 Stone] missile as a nuclear capable weapon by 
Russian statements, includes nuclear artillery by Russian 
statements, it includes routine deployment of nuclear weapons 
on naval ships other than SSBNs [ballistic missile submarines]. 
These are all open Russian statements claiming that they are in 
fact doing this. These are all violations of the PNI. So when I 
hear this is a model of how we should go in the future, I 
think, you know, maybe we ought to fix this one first before we 
decide to take this up as a model in the future.
    Mr. Nugent. And I think verification, obviously, is--and 
Dr. Blair, you agree that verification is the important 
component in all this, no matter what you agree to, if we can't 
verify and----
    Dr. Blair. The Global Zero report did not recommend 
following the route of PNI.
    Mr. Nugent. By Dr. Payne's testimony and by Russia's own 
admissions in regards to what they have and what they have in 
their stockpile, they are clearly not in compliance.
    Dr. Blair. I thought you were asking about compliance with 
New START.
    Mr. Nugent. I am sorry that I am out of time and I yield 
back.
    Mr. Rogers. I thank the gentleman yielding back, and the 
Chair now recognizes Mr. Garamendi for 5 minutes for any 
questions he may have.
    Mr. Garamendi. Let's finish this last conversation. It 
seems as though the discussion between Mr. Blair and Mr. Payne, 
were dealing with two different treaties and understandings, so 
let's get a clarification here.
    Dr. Blair. That is correct.
    Mr. Garamendi. Dr. Payne, you were talking about a 1990, 
1991. Could you quickly explain that?
    Dr. Payne. Yes, sir. I was talking about the PNI agreements 
of 1990 and 1991.
    Mr. Garamendi. Well, maybe somebody will be listening to 
the rest of this conversation then. And Dr. Blair, you were 
talking about?
    Dr. Blair. The New START Treaty.
    Mr. Garamendi. Okay. So, I think we pretty much know what 
New START is, so let's talk about what the 1990, 1991 and why 
it is relevant to the question that was asked.
    Dr. Payne. Sure. The PNI, as I recall, were intended to be 
reciprocal agreements between the United States and Russia to 
draw down nonstrategic nuclear forces. It wasn't a treaty. It 
didn't have a verification package, but it was an attempt to, 
essentially, provide those kind of reductions outside of a 
negotiated treaty with a verification package, and so given the 
fact that that is an approach that is talked about a good bit 
today, I think it is useful to go back and look at the PNIs and 
see how the Russians now are doing with regard to compliance to 
that, and what we know now by the Russians' own statements in 
their own press, they are in fairly substantial violation of 
it.
    Mr. Garamendi. The PNI were agreements, mutual agreements 
between the United States and Russia?
    Dr. Payne. These are political agreements between the 
United States and Russia, correct, sir.
    Dr. Blair. They were tacit agreements. They were not 
stipulated in any kind of written agreement between the two 
countries.
    Mr. Garamendi. I think we need to be really, really careful 
because this kind of a discussion gets out there and used for 
an argument, but its relevancy to the formal treaty structures 
is somewhat removed.
    Now, there may have been an understanding, but I will 
guarantee you that what was said here is going to find its way 
outside the door, and bingo, the Russians are not in compliance 
with treaties, when that is not the case at all. Is that 
correct, Mr. Payne?
    Dr. Payne. Sir, the PNIs are outside of the formal ratified 
treaty process. That is correct, sir.
    Mr. Garamendi. Thank you. Now, I would like to take this a 
little different direction. What kind of weapons do we need 
going forward? Do we need three different weapons? Do we need 
one different weapon? This is in part targeting but it is also 
targeting with what? Any one of you gentlemen want to talk 
about this?
    Dr. Blair. Well, the Global Zero report developed an option 
that was based on a dyad of nuclear submarines and of B-2 
[Spirit] bombers and made the case that there are serious 
liabilities with the current Minuteman nuclear force and that 
that was a force that could and should be closely examined for 
potential elimination. Reasons for that had to do with the lack 
of flexibility of the Minuteman forces, the fact that they have 
to fly over Russia and China to attack the current contemporary 
real adversaries of the United States, such as North Korea; 
whereas, the flexibility of the submarines and the bombers were 
much greater in their ability to carry out a range of missions, 
nuclear missions.
    So, we based the 900-warhead arsenal that I presented in my 
testimony on a dyad of submarines and B-2 bombers.
    Mr. Garamendi. Okay. Comments.
    Dr. Payne. Sure. My thoughts on that are the priority of 
maintaining a U.S. triad of nuclear forces.
    Mr. Garamendi. Why?
    Dr. Payne. Because the triad provides the United States 
enormous level of flexibility and resilience to deter threats 
in the future that we may not be able to identify now. It 
allows us to adapt to threats as they come along. That is the 
great brilliance of the triad, and if we are going to maintain 
a triad, then we need to look at what are the steps that need 
to be taken now.
    Just for example, life extension program for the Minuteman 
missile, I think, is very important. Going ahead with a new 
bomber would strike me as very important to help maintain the 
triad so we don't move down to a dyad or a monad and then 
getting on----
    Mr. Garamendi. Excuse me. I am almost out of time. In fact, 
I am out of time, but before you get to all of that, you have 
got to come back to the initial question of why a triad is 
necessary. You quickly blew through. You didn't have enough 
time to really get into it, but we really need in this 
committee, it seems to me, to really get down into the details 
of why or why not a triad. It is an enormous amount of money. 
The reconditioning of those, all three elements is 
extraordinarily expensive. Is it essential, and that is the 
subject matter.
    I am out of time, and I thank you very much for your 
testimony.
    Mr. Rogers. Thank you, Mr. Garamendi.
    The Chair now recognizes Mr. Franks for 5 minutes for any 
questions he may have.
    Mr. Franks. Well, thank you, Mr. Chairman. Thank all of you 
for being here today. Dr. Blair, I will start with you. I was 
over in North Korea and South Korea here some time ago and I 
agreed with your premise that we have gained, at least South 
Korea has gained a qualitative advantage in conventional 
weapons. Did I understand your testimony that you had said 
something along the lines that now that that is gained, the 
nuclear deterrence or the nuclear capability on the part of 
South Korea or the United States supporting forces was no 
longer as necessary?
    Dr. Blair. For tactical warfighting purposes we no longer 
have to rely on short tactical nuclear weapons to suppress the 
North Korea's artillery threat to the South. We do, obviously, 
want to continue to project a strategic threat at North Korea.
    Mr. Franks. I wanted to make sure about that.
    Dr. Krepinevich--I am sorry. Krepinevich. I got it right, 
didn't I, Krepinevich?
    Dr. Krepinevich. Close. It is Krepinevich.
    Mr. Franks. Krepinevich. Boy, I tell you, I know that never 
happens to you. I was impressed with your comments related to 
deterrent itself. It is in the minds of the beholder, and you 
know, it occurs to me that this discussion should always be 
predicated on how people perceive our deterrent.
    I remember years ago that the discussion about a nuclear 
freeze or something along those lines, and William F. Buckley 
put it so well. He said, you know, the idea is not to freeze 
it, being able to only destroy each other a few times. The idea 
is to prevent someone from proceeding. And so I wanted to ask 
you, Dr. Blair, based on that, because I assume that you 
believe in deterrence in some of the comments you made, it 
sounds. Who would be more deterred? Who, as far as a potential 
enemy of the United States, Iran or China or anyone, who would 
be more deterred by our reduction in our strategic capability? 
Who would that deter more?
    Dr. Blair. I don't think the reductions matters. It is what 
is left over at the end. Remember----
    Mr. Franks. No. My question is, would there be anybody that 
would be deterred more by a reduction in our strategic 
capabilities?
    Dr. Blair. If we have a 900----
    Mr. Franks. Is that a ``yes'' or a ``no.''
    Dr. Blair [continuing]. We have the ability----
    Mr. Franks. I am going to move on then. Who would reduce 
their nuclear weapons based on us--I say put Russia aside for a 
moment. Who else would reduce their nuclear weapons arsenal or 
existing arsenals following our potential reduction?
    Dr. Blair. Well, I don't think anyone would. I think we 
need to----
    Mr. Franks. I think that is the right answer.
    Dr. Blair. I think we need to assert leadership to bring 
other countries into the----
    Mr. Franks. Is there a number too low, from your 
perspective, that we should go? In other words, what would be 
too low from your perspective?
    Dr. Blair. We need to bring all the nuclear weapons 
countries into a negotiation.
    Mr. Franks. All right. And if we did that, would there be a 
number too low?
    Dr. Blair. The goal of Global Zero is through phased 
verifiable proportional reductions that in due course----
    Mr. Franks. Hence Global Zero, I got you. All right. I just 
wanted to know where you were coming from.
    Dr. Blair. And most people, I think, these days in the 
mainstream believe that the United States would be more secure 
living in a world without nuclear weapons than it is living in 
the world today.
    Mr. Franks. Well, we might all feel more secure if we just 
lived on some distant fairyland planet, too. I mean, you know, 
the notion is unfortunately other people don't always do what 
we would like for them to do. It is a dangerous world.
    Dr. Blair. In the 1980s, no one would have guessed that we 
would be----
    Mr. Franks. Let me ask you another question. I am asking 
the questions here today, Dr. Blair.
    Dr. Blair. Sorry?
    Mr. Franks. I am asking you questions here today. I guess 
my question to you then----
    Dr. Blair. I am trying to answer your question, sir. You 
are not giving me an opportunity.
    Mr. Franks. All right. You have answered them so far. Given 
your conviction for steep nuclear reductions, would you then 
advocate significant increases in expenditures for conventional 
warfare, conventional weapons capability and missile defense?
    Dr. Blair. Yes.
    Mr. Franks. That's an answer.
    Dr. Krepinevich, if you could suggest to us, as a 
committee, what is the one thing that we could do in our 
nuclear doctrine that would increase ultimately the safety and 
protection of American men, women, and children and posit the 
course, the pursuit of freedom in a safer capacity? What is the 
one thing you think that we should do that would make this 
country safer and give us less chance of having a nuclear 
exchange of some kind?
    Dr. Krepinevich. I think the most important thing that we 
can do right now is to understand our nuclear rivals, 
understand how they calculate cost, benefit, and risk. If we 
are going to--if the ultimate goal is to prevent the use of 
these weapons and ultimately we are trying to deter them from 
using these weapons, then I think we have to understand how 
they go about calculating cost, benefit, and risk. And there 
has been a lot of advances over the last 10 years in the 
cognitive sciences, in the psychological sciences that really 
have highlighted some of the fundamental differences between 
cultures, Western cultures and other cultures as to how these 
factors are calculated.
    Dr. Krepinevich. Dr. Payne has done a great job of 
highlighting some of the history of just how leaders, other 
leaders have undertaken what we would consider highly 
irrational acts that are within their framework rational. So 
again I think if that is the ultimate goal, understanding, sort 
of thinking this through before we start committing huge sums 
of money one way or the other would be greatly to our benefit.
    Mr. Franks. Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentlemen.
    The Chair now recognizes Mr. Carson for 5 minutes for any 
questions he may have.
    Mr. Carson. Thank you, Mr. Chairman.
    Dr. Krepinevich, in the event that our nuclear stockpile 
was significantly reduced, to what degree do you believe our 
nonnuclear conventional capabilities would ever provide a 
deterrent? Do you believe that any level of investment in these 
capabilities could ever create a deterrent to rival our current 
nuclear deterrent? If not, how close could we get?
    Dr. Krepinevich. I think, and this goes back to 
conversations I had with leaders of our Strategic Command after 
the first Gulf War, even then people like General Horner, 
General Habiger thought there was a small but significant 
substitution effect. In other words there were some targets 
that we could use precision guided weapons for in lieu of 
nuclear weapons. So again I think there is some 
substitutability effect there.
    On the other hand, the competition isn't static, it's 
dynamic, and so have you rivals dispersing their assets, they 
go deep underground, they put them in mountains, and it is this 
back-and-forth game. So while I think there is some possible 
substitution there, I don't think it is widespread.
    Second, I think that when you are looking at this question, 
nuclear weapons offer prompt catastrophic destruction, cyber 
weapons don't, biological weapons don't. Nuclear weapons are in 
a class all on their own, and for that purpose they are unique. 
Now to what extent do you need that capability? I think you 
need it in a lot of ways for deterrence, it is the ultimate 
threat.
    One of the things I think that is becoming worrisome from 
my point of view is the blurring of this distinction between 
nuclear weapons and nonnuclear weapons. We now have things like 
the mother of all bombs, highly destructive conventional 
weapons, still nothing like a large-yield nuclear weapon. The 
Russians on the other hand are producing nuclear weapons of 
extremely small yield again to offset their conventional 
inferiority. To the extent that you got conventional weapons 
that in some cases can substitute for nuclear weapons and 
nuclear weapons that rivals consider to be usable because they 
are low yield, I think there is a real risk area there. I am 
not sure I am answering your question, but I do think this is 
one area that concerns me greatly.
    Mr. Carson. Dr. Krepinevich, thank you, sir.
    Dr. Payne.
    Dr. Payne. Same question?
    Mr. Carson. Yes, sir.
    Dr. Payne. Great. I believe that there is role for advanced 
conventional forces to complement deterrence. I have thought 
that for a good long time. But that is a different point than 
saying they can substitute for nuclear weapons for deterrence. 
We know that conventional deterrence fails catastrophically on 
occasion. We have been to the nuclear-free mountaintop, and 
what we saw last time is we had 110 million casualties in just 
over 10 years of warfare. That was the nuclear-zero mountaintop 
we were at last time. And so I am real careful about saying 
conventional forces can substitute for nuclear forces for 
deterrence because we have been there and we have seen what 
happens and it was pretty ugly. But I think they can complement 
nuclear weapons for deterrence by making our arsenal more 
flexible and giving us more options which with to deter.
    Dr. Blair. I would answer the question by saying there has 
been a massive substitution over the last 30 years of 
conventional for nuclear forces. We have relieved ourselves of 
the need to rely on nuclear weapons for almost all of the 
missions that we have today. That is one of the reasons why our 
numbers have gone so dramatically down over the last 25 years.
    When I worked at Strategic Command in Omaha for a man who 
became the vice commander, he put together in 1984 a plan that 
would have substituted conventional air launch cruise missiles, 
launched by B-52 [Stratofortress] bombers, to cover all of the 
soft targets in the Soviet Union to the east of the Ural 
Mountains. That was shot down by--at the Pentagon because it 
infringed on the roles and missions of the tactical U.S. Air 
Force with its conventional missions. But since 1980 and the 
beginning of cruise missiles and precision guided munitions and 
now with the advent of amazing information processing and 
collection, we have basically been in the process of shutting 
down the nuclear enterprise and replacing it with missile 
defenses and now with cyber, but also special ops, drones, all 
of the things that we at one time in our history would have had 
to rely on a nuclear weapon to carry out a mission now we have 
conventional options in our kit bag.
    Mr. Carson. Thank you, gentlemen. Mr. Chairman, I yield 
back.
    Mr. Rogers. I thank the gentlemen.
    The Chair now recognizes Mr. Wilson from South Carolina for 
5 minutes.
    Mr. Wilson. Thank you, Mr. Chairman and thank you all for 
being here today. And I certainly agree with Sheriff Nugent 
that I appreciate the very candid comments from each of you on 
very important issues to our country.
    Dr. Payne, the National Nuclear Security Administration is 
currently constructing the mixed oxide fuel fabrication 
facility at the Savannah River site. This facility once 
complete will dispose of excess plutonium from dismantled 
nuclear weapons as provided by the 2000 Plutonium Management 
and Disposition Agreement by the United States and the Russian 
Federation. There is speculation about reducing or even halting 
the funding for the project. What is your opinion as to the 
Russian reaction?
    Dr. Payne. Sir, I know I know enough to say when I don't 
know enough to give you an informed answer. On this particular 
subject I will tell you I don't know enough to give you a very 
informed answer on the subject.
    Mr. Wilson. Again, I said this is candid, you are. So thank 
you. And Dr. Blair, given the Administration's goal of reducing 
our Nation's nuclear weapons stockpile it is clear that the 
National Nuclear Security Administration will need a pathway 
for plutonium disposition. In fact you referenced this. Do you 
believe it would be better to dispose of weapons-grade 
plutonium by turning it into mixed oxide fuel for commercial 
power generation or do you support indefinite storage of the 
pits at Pantex and the Savannah River site?
    Dr. Blair. I don't believe those are the only options. 
Unfortunately, I think the MOX [mixed oxide nuclear fuel] 
option is really interesting, but unfortunately that MOX 
facility is 10 years behind schedule, and over $10 billion over 
budget, and it is looking less and less like a viable idea. I 
think that facility could be and should be used probably to 
dispose of the plutonium pits through mixing it with waste, all 
kinds of different plutonium disposition techniques that you 
know wouldn't involve your facilities that would glassify, 
vitrify, mix with waste, et cetera, and then move it out and 
store it in the New Mexico repository probably is the most 
sensible way to go at this point I am afraid.
    Mr. Wilson. And I do need to let you know there is dispute 
over the numbers you used and also the timeline.
    Dr. Krepinevich, you have written a book that sounds 
intriguing and that is 7 Deadly Scenarios: A Military Futurist 
Explores War in the 21st Century. As the author could you just 
briefly tell us what the top three scenarios you believe are 
most likely as what you call real-world likely?
    Dr. Krepinevich. Well, after writing the book the ones that 
certainly bothered me the most, one had to do with Pakistan 
coming apart at the seams and breaking into factions, competing 
factions, and you had the issue of loose nuclear weapons to 
consider. So that was one.
    Second had to do with nuclear weapons that were sold on the 
Russian black market that were smuggled into the United States, 
and it wasn't one weapon, it was a number of weapons. You had a 
weapon go off and there was--it presented rather unique 
problems for the political leadership of the country as well as 
technical problems, and that was the second scenario.
    The third had to do with a nuclear-armed Israel and Iran, 
and the inherent instability of exceedingly short warning times 
and the willingness of Iran now that it had nuclear weapons to 
be very aggressive in its pursuit of proxy warfare against 
Israel.
    Mr. Wilson. And with these scenarios has there been any 
indication of former Soviet nuclear materials coming into the 
United States?
    Dr. Krepinevich. No, no, no, there is no bombs, not to my 
knowledge, being smuggled into the United States. But again 
looking at the issue of Soviet nuclear security, Soviet 
organized crime, terrorist operatives in that part of the world 
and so on, and the funding of certain terrorist groups, that 
formed the basis for the event that triggered the scenario.
    Mr. Wilson. Well, again I appreciate you raising these 
issues and I in particular in regard to Pakistan I had the 
privilege and opportunity of actually having breakfast 4 weeks 
and a day with Benazir Bhutto before she was assassinated, so 
the possible dissolution of Pakistan certainly is of great 
concern.
    Thank you very much.
    Dr. Krepinevich. Just very quickly to mention, it turned 
out Secretary Gates read the book at the time and asked me to 
come in and write a number of scenarios that they actually 
wargamed out. So there was some I guess public policy payoff of 
the book.
    Mr. Wilson. Well, congratulations on your recognition. 
Thank you.
    Mr. Rogers. I thank the gentlemen for yielding back.
    I want to go back and revisit a dialogue that Mr. Nugent 
and Mr. Garamendi were having a little earlier about the 
difference between the New START Treaty and the PNIs. I think 
there was some clouding there. Dr. Payne emphasized that the 
Russians had in his opinion not been complying with the PNIs 
that preceded the New START Treaty. And my question, Dr. Blair, 
is do you dispute that the Russians have not been in compliance 
with the PNIs that preceded New START Treaty.
    Dr. Blair. No, I wouldn't dispute that. I don't think they 
have fully strictly complied with the understandings of what we 
thought they were supposed to do.
    Mr. Rogers. That was my understanding.
    Dr. Blair. That is one of the reasons why the Global Zero 
Commission really wants to go the bilateral negotiated 
verifiable route to reductions in nuclear weapons and not have 
this fuzzy process out there of unilateral reductions or 
unilateral understandings of the other person's obligations, et 
cetera.
    Mr. Rogers. I am in complete agreement with that. I think 
that we need to have verifiable treaties that go through the 
Senate, the regular order process. I do note on page 1 of your 
report it says that in talking about getting to 900 it says, 
``These steps could be taken with Russia in unison through 
reciprocal Presidential directives negotiated in another round 
of bilateral arms reduction talks or implemented 
unilaterally.'' So----
    Dr. Blair. We looked at all the options. You could do X, Y, 
or Z but we came down in the end the consensus, unanimous 
consensus was that the bilateral negotiated treaty approach was 
the way to go.
    Mr. Rogers. And, that's in the report too?
    Dr. Blair. Yes.
    Mr. Rogers. Excellent. Thank you. I also want to mention I 
have had distributed to all of you a chart that was drafted, 
put together by Admiral Richard Mies and it looks at the global 
fatalities from major wars around the world over the last 400 
years. And you see that approximately 2 percent of the world's 
population was dying in these wars from 1600 to 1800, then it 
fell down to about 1 percent. And then we saw in the 1900s, 
World War I and World War II saw a spike. But right after that 
with the advent of nuclear weapons we see that for the last 50 
years or so the percentage of global fatalities from war has 
dropped to less than one-tenth of 1 percent. My question is, 
wouldn't this be hard objective quantifiable data that in fact 
nuclear weapons do have a chilling effect on warfare as opposed 
to escalating the probability of major wars? And I would open 
that up to anybody who wants to respond.
    Dr. Blair. I think you should survey the landscape of 
conflict around the world today from Mali to anywhere you want 
to look, Russia, Georgia, et cetera, Chechnya. And ask yourself 
the question do nuclear weapons play a role in the 21st century 
in resolving those conflicts? And I think whatever role they 
played after the end of World War II and during the Cold War in 
preserving the peace and preventing great war that's changed, 
it is a different world.
    Mr. Rogers. I completely agree. Those minor conflicts and 
relatively to the global population, those are minor, have 
always existed along with these major wars. And my question is 
since, this chart lends credibility to the argument that 
nuclear weapons in fact----
    Dr. Blair. On the face of it but it is just a correlation 
that you have to dig deeper into. I mean, I don't think any of 
us here would want the whole world to go nuclear on the 
strength of that premise, that nuclear weapons keep the peace. 
By that logic we would have 198 countries with nuclear weapons 
and it would be a much more dangerous world obviously. India 
and Pakistan today, would we prefer that they eliminate their 
nuclear weapons or keep them on the hope that they preserve the 
peace between the two countries? You know, as far as I am 
concerned, I think we are all better off with fewer nuclear 
weapons in any part of the world.
    Mr. Rogers. And I appreciate and respect that is your view. 
I have a polar opposite and it is because of this chart that I 
believe the opposite's true.
    Dr. Payne, would like to comment on Admiral Mies' chart?
    Dr. Payne. Sure. There is enough historical evidence to 
demonstrate beyond any reasonable doubt that nuclear weapons 
add usefully to deterrence. This chart aggregates that over 4 
centuries, there are also individual case studies in more 
recent history where you can go and we understand what was 
going on with the two parties to know that nuclear deterrence 
helped prevent war or helped prevent the escalation to war. We 
know that beyond any reasonable doubt, which is why I am so 
interested in not focusing on the notion that fewer is better, 
fewer might be better, fewer might also be worse. The question 
is do we have the kind of nuclear arsenal that maximizes our 
ability to deter war and to deter escalation? That is the key 
question, not whether the number is fewer or more. The question 
is it the kind of arsenal that contributes most effectively to 
deterrence because as this chart recognizes nuclear deterrence 
is a very, very important product. And for us to back away from 
it, and for example, going towards nuclear zero, what we are 
risking is getting back to the world we saw there at World War 
II in a nonnuclear world where nuclear deterrence wasn't 
operating and we had enormous number of casualties because 
deterrence failed catastrophically.
    Mr. Rogers. Thank you. The last question I will ask, 
because I will submit the rest of mine for the record,the last 
question I ask goes back to a topic raised by Mr. Garamendi 
which is a very important topic which is the triad. He is 
right, it is a very costly approach. However, having said that 
General Kehler, who is the commander, U.S. security forces, 
recently said, ``The Triad of SSBNs, ICBMs, and nuclear 
capability heavy bombers all with their associated support 
elements offer a mutually reinforcing strategic package that 
provides a credible deterrent to our adversaries, assurance to 
our allies and partners, and flexibility for the President.''
    What do you all think, I mean that`s General Kehler saying 
that we really need it for all of those reasons for our allies 
and our President's flexibility. Is it worth the investment 
that we are making? And I will start with Dr. Krepinevich and 
then go to Dr. Blair and then Dr. Payne and that will be my 
time.
    Dr. Krepinevich. Well, one of the virtues of the triad is 
that each element has advantages that the other doesn't so they 
help cover for one another's weaknesses. I would say in the 
case of bombers, as we have seen in multiple conflicts, bombers 
have proven useful for conventional deterrence and in 
conventional warfighting.
    Mr. Rogers. Go back to my point, I don't want to wear out 
my welcome here with time. Is it worth the investment or not? 
It is kind of a ``yes'' or ``no'' thing.
    Dr. Krepinevich. I can't give it to you ``yes'' or ``no,'' 
Mr. Chairman. You really need to sit down and look at real 
world problems I think and how you are going to address them.
    Mr. Rogers. Dr. Blair.
    Dr. Blair. No, it is not worth the investment.
    Mr. Rogers. Dr. Payne.
    Dr. Payne. It certainly is in the bipartisan congressional 
strategic posture commission.
    Mr. Rogers. We get one ``yes,'' one ``no,'' and one ``I 
can't say.''
    With that I yield back. The Chair now recognizes the 
ranking member for any questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman, I appreciate the 
patience and courtesy of the witnesses here as we explore these 
important issues. It almost seems to me that we need to have a 
couple of closed-session hearings so that we can talk about 
some things that cannot be aired in public. I thought the 
chairman's chart was very interesting here. I look forward to 
reading Admiral Mies' book. I do worry though, I think Dr. 
Blair put it very well, there is a difference between 
correlation and causation, a big drop in casualties here but 
after 1800 you wonder like if the repeating rifle can be 
credited with that advance or perhaps rifle to barrels or 
something. I think what this chart fails to show is that if we 
were to make mistakes now with nuclear weapons the casualty 
rates would not only go off the chart, it would probably bust 
through the ceiling of this building and I mean the top floor, 
because that is the risk with nuclear weapons. Certainly a 
massive exchange could be extinction of the planet. So I also 
thought Dr. Blair phrased it very well except for a few powers 
nuclear weapons really don't play any role at all with a lot of 
the asymmetric warfare we are seeing around the world in 
smaller conflicts.
    I hope that as these hearings progress we can have fewer 
arguments about straw men because I think there are so many 
false impressions that people have. I am very much glad the New 
START/PNI confusion was cleared up, but I think if we are 
careful about this we can figure out what an appropriate number 
is and not really make this political at all. I think it is the 
first Bush administration that is credited with the greatest 
percentage reduction in nuclear weapons that we had from 1989 
to 1994, but there have been substantial cuts under both 
administrations. And I think most people agree now that it was 
probably for the good. So let's see what is feasible based on 
current information and proceed on that basis.
    Thank you, Mr. Chairman, and thank the witnesses for their 
patience and expertise.
    Mr. Rogers. I thank the gentlemen. Mr. Garamendi, do you 
have any questions? You are the swan song.
    Mr. Garamendi. Yes, about a thousand questions. Just a 
couple of things very quickly. I really agree with the 
necessity for confidential hearings on this and to really get 
into the details for all kinds of reasons.
    One of the straw men that has been going on here is the 
issue between zero and some other number. I don't think in my 
career here which I hope is a good long time I will see zero, 
but I would hope to see a reduction to a point where there is 
deterrence, but there is no more than that. So we ought to in 
my view try to identify what that is.
    With regard to the triad, very complex, but very, very 
important for all the reasons some of which have been discussed 
here and many, many more.
    I just want to cover something that Mr. Wilson brought up 
and that is the issue of the plutonium pits that are in the 
United States and in Russia. These are ready-made weapons. This 
is not something to be--it is something to be really serious 
about. And the security of those is questionable. The committee 
has had hearings about that. And if it is questionable it 
certainly ought to be dealt with. There happens to be a 
solution, Mr. Blair, and that is to take the pits and to turn 
them into a metal fuel, which could be done easily and quickly 
and that fuel could be set aside for some later use in an 
integral fast reactor. It is very viable and it does not create 
the same problems that the MOX facility has. That is an issue 
for another day and another hearing.
    Mr. Chairman, I am just going to let it go at this. These 
gentlemen have an extraordinary amount of knowledge, they 
obviously--and I thank you for bringing both sides to the 
table. We really need to get into this in much, much more 
detail. It is extremely important for the security of this 
Nation and beyond. Mr. Cooper made the point that I wanted to 
make and he made it very well, is that all well and good with 
this chart, but if--and this is Mr. Krepinevich's book--the 
first issue he raised the most likely scenario was India-
Pakistan, and the potential instability in Pakistan. And should 
that happen then the nuclear weapon may very well become a 
conventional use of it or a terrorist use, in which case the 
numbers here would go way off the chart. And so anything we can 
do to remove such potential, that is to remove the number of 
weapons here, there, anywhere, is to our benefit. We understand 
deterrence and the necessity for that, but that doesn't mean we 
can't move forward with a reduction in numbers and the delivery 
mechanisms both by terrorists and by traditional military 
means. I yield back.
    Mr. Rogers. I thank the gentlemen and I also want to take 
time to thank all the witnesses for taking their time not only 
to be here but for the time it takes to prepare for this. I 
know it takes a lot of effort, and energy, and time and you 
ought to be commended. Mr. Garamendi is right, you are all very 
knowledgeable experts and we appreciate your opinions, whatever 
the opinions are. It is important for us to hear all sides.
    To that end, as you know this hearing came at the end of 
the last series of votes for the day and members went different 
directions and they weren't all here. So you may have some 
additional members who have questions for the record. We will 
ask that the record remain open for 10 days, any members who 
come in and want to submit questions to you all. I ask that you 
reply to those in writing.
    And with that, thank you for attendance and this meeting is 
adjourned.
    [Whereupon, at 5:33 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 19, 2013

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 19, 2013

=======================================================================

      
                     Statement of Hon. Mike Rogers

            Chairman, House Subcommittee on Strategic Forces

                               Hearing on

         The U.S. Nuclear Deterrent: What Are the Requirements

         for a Strong Deterrent in an Era of Defense Sequester?

                             March 19, 2013

    Our hearing today is on an important topic: ``The U.S. 
Nuclear Deterrent: What Are the Requirements for a Strong 
Deterrent in an Era of Defense Sequester?'' And, we have a 
distinguished group of experts to help us consider this 
subject. They are:

        <bullet> LDr. Keith B. Payne, Professor and Head, 
        Graduate Department of Defense and Strategic Studies, 
        Missouri State University;
        <bullet> LDr. Andrew F. Krepinevich, Jr., President, 
        Center for Strategic and Budgetary Assessments; and
        <bullet> LDr. Bruce Blair, Co-founder, Global Zero.

    This Nation has some key decisions ahead of it. We find 
ourselves in the position of having to recapitalize our entire 
deterrent at exactly the time that every other nation is 
growing or modernizing its nuclear forces, but, we have 
absorbed reductions in our defense budget of $487 billion and 
we're now 18 days into President Obama's defense sequester that 
will take another half a trillion dollars out of our defense 
budget over the next decade. If we can't fix this problem, we 
will do what Secretary Panetta described as cuts that would 
``decimate our defense. It would cripple us in terms of our 
ability to protect this country.''
    I am encouraged that, at least in the short term, DOD 
understands the importance of the nuclear deterrent and will 
act to protect it and the central role it plays in the Nation's 
security. For example, Deputy Secretary Carter, when testifying 
before the full committee 2 weeks ago, said that:

        `` Lnuclear deterrence is pretty important. So it's the 
        last thing that you want to do serious damage to. So I 
        would imagine that the Department of Energy, and the 
        leadership there, and certainly we in the Department of 
        Defense, will try to protect our nuclear capabilities 
        to the maximum extent possible.''

    But, I worry that in the long term, this situation will 
allow the President to further walk back on his commitments to 
modernize and maintain the deterrent. And these are his 
commitments he made during the New START treaty. They are his 
Section 1251 plan he promised to the Senate; this is his 
Nuclear Posture Review.
    As I mentioned at the outset of my remarks, the United 
States is in the position of having to modernize and replace 
its entire nuclear triad in the very near future. For example, 
our sea-based deterrent leg was first commissioned in 1981; our 
land-based deterrent has been deployed and on-alert since 1970; 
and, the mainstay of our airborne deterrent has been performing 
the strategic deterrent mission since 1955. Our nuclear 
deterrent is the most cost-effective and proven means of 
promoting peace for the American people and their allies, but 
we have not been investing in it in a responsible way. Our real 
and potential adversaries and competitors understand this. 
Russia, for instance, has tested three new ICBMs since the New 
START treaty entered into force 2 years ago. The People's 
Republic of China is preparing to put to sea a ballistic 
missile submarine and sea-launched ballistic missile and it 
appears to be readying three new long-range ballistic missiles 
capable of attacking the United States.
    If President Obama is right, and there is peace and 
security in a world without nuclear weapons, it seems every 
other country with nuclear weapons--or, like Iran, the 
aspiration to develop them--has missed the memo. I will add to 
the record a document derived from open sources that lists 
summaries of just a few open source articles of what other 
nuclear weapons states are undertaking today. I note that 
Russia's Vladimir Putin tells his people that, ``[n]uclear 
weapons remain the main guarantee of Russia's sovereignty and 
its territorial integrity, it plays a key role in maintaining 
global and regional stability and balance.''
    President Obama, however, said at the State of the Union 
address last week that, ``we will engage Russia to seek further 
reductions in our nuclear arsenals . . . because our ability to 
influence others depends on our willingness to lead.''
    Are they both right? I think General Welch, former 
Strategic Air Command Commander and former Chief of Staff of 
the U.S. Air Force, had it right when he said that,

        `` LThe only basis for the idea that drastically 
        reducing the number of nukes we have would magically 
        make us safer and help eliminate other nuclear dangers 
        is hope. But hope is not a plan, and hope is not a 
        basis for security. Hope does not defend us. I would 
        ask who would be willing to rely on hope for the safety 
        and security of their family? . . . Leading the world 
        to zero nuclear weapons is, at best, a fairy tale.'' 
        (emphasis added)

    There is a rising consensus from General Scowcroft, 
Secretaries Perry, Kissinger, Shultz, and Senator Nunn that the 
one-time frenzy of a world without nuclear weapons is little 
more than a fantasy, and a dangerous one. For example, the so-
called Gang of 4's recent Wall Street Journal op-ed piece is a 
dramatic shift from the original 2007 piece. I think you'll 
find that the requirements in the March 2013 piece are 
precisely those Republican Senators and House Members would 
insist upon:

        `` LWashington should carefully examine going below New 
        Start levels of warheads and launchers, including the 
        possibility of coordinated mutual actions. Such a 
        course has the following prerequisites: a) strict 
        reciprocity; b) demonstrable verification; and c) 
        providing adequate and stable funding for the long-term 
        investments required to maintain high confidence in our 
        nuclear arsenal.''

    Indeed, Secretary Kissinger and General Scowcroft warned in 
April 2012 that: ``[s]trategic stability is not inherent with 
low numbers of weapons; indeed, excessively low numbers could 
lead to a situation in which surprise attacks are 
conceivable.''
    This shift by the distinguished elder statesmen is welcome. 
It may not make the Washington, DC, arms control community 
happy, because these requirements shut the door on the idea of 
evading the treaty clause or endorsing the ``Global Zero'' 
vision, but they are smart policy. We are at a crisis point 
where we must focus on the imminent threats of North Korea and 
Iran.
    So, I look forward to examining these matters today. They 
are important to the Nation's security and they are matters we 
will tackle in our markup of the FY14 National Defense 
Authorization Act.

                      Statement of Hon. Jim Cooper

         Ranking Member, House Subcommittee on Strategic Forces

                               Hearing on

         The U.S. Nuclear Deterrent: What Are the Requirements

         for a Strong Deterrent in an Era of Defense Sequester?

                             March 19, 2013

    I would like to join Chairman Rogers in welcoming Dr. 
Payne, Dr. Krepinevich, and Dr. Blair to this hearing on the 
U.S. nuclear deterrent.
    A recent edition of the Wall Street Journal contained the 
latest opinion piece by four of America's most distinguished 
defense and foreign policy experts: George Shultz, Bill Perry, 
Henry Kissinger, and Sam Nunn. Their article is entitled: 
``Next Steps in Reducing Nuclear Risks: The Pace of 
Nonproliferation Work Today Doesn't Match the Urgency of the 
Threat.'' Their article is perfectly timed for today's hearing, 
and contains several valuable lessons for this subcommittee.
    First, the article is bipartisan. Two top Republicans and 
two Democrats have joined together to advocate for a better, 
safer world. They have set aside their differences for the 
common good. The House of Representatives should learn from 
their example.
    Second, the article is balanced. The authors think that 
``Washington should carefully examine going below New Start 
levels of warheads and launchers,'' but are quick to cite the 
need for reciprocity, verification, and stable funding. Instead 
of sloganeering, they seem to be offering a responsible path to 
reducing America's warheads from 1,550 to a lower number.
    Third, they are bullish on the prospect that today's 
leaders can act promptly and responsibly in order to reduce 
nuclear risk in the world. They believe that today's leaders 
can and will do a better job of securing nuclear materials, 
changing deployments and hair-trigger launch protocols, and 
engaging in global and regional dialogues. This optimism is not 
from starry-eyed idealists but from hard-nosed realists.
    What worthier challenge could this subcommittee, or this 
Congress, have than to do what we can in the legislative branch 
to promote a safer, saner world? Perhaps our goal should be, 
mindful of our limitations, to do no harm. We should not treat 
any of these issues as political footballs, or stand in the way 
of responsible efforts to reduce nuclear risk.
    Thank you, Mr. Chairman.

    [GRAPHIC] [TIFF OMITTED] T0191.001
    
    [GRAPHIC] [TIFF OMITTED] T0191.002
    
    [GRAPHIC] [TIFF OMITTED] T0191.003
    
    [GRAPHIC] [TIFF OMITTED] T0191.004
    
    [GRAPHIC] [TIFF OMITTED] T0191.005
    
    [GRAPHIC] [TIFF OMITTED] T0191.006
    
    [GRAPHIC] [TIFF OMITTED] T0191.007
    
    [GRAPHIC] [TIFF OMITTED] T0191.008
    
    [GRAPHIC] [TIFF OMITTED] T0191.009
    
    [GRAPHIC] [TIFF OMITTED] T0191.010
    
    [GRAPHIC] [TIFF OMITTED] T0191.011
    
    [GRAPHIC] [TIFF OMITTED] T0191.012
    
    [GRAPHIC] [TIFF OMITTED] T0191.013
    
    [GRAPHIC] [TIFF OMITTED] T0191.014
    
    [GRAPHIC] [TIFF OMITTED] T0191.015
    
    [GRAPHIC] [TIFF OMITTED] T0191.016
    
    [GRAPHIC] [TIFF OMITTED] T0191.017
    
    [GRAPHIC] [TIFF OMITTED] T0191.018
    
    [GRAPHIC] [TIFF OMITTED] T0191.019
    
    [GRAPHIC] [TIFF OMITTED] T0191.020
    
    [GRAPHIC] [TIFF OMITTED] T0191.021
    
    [GRAPHIC] [TIFF OMITTED] T0191.022
    
    [GRAPHIC] [TIFF OMITTED] T0191.023
    
    [GRAPHIC] [TIFF OMITTED] T0191.024
    
    [GRAPHIC] [TIFF OMITTED] T0191.025
    
    [GRAPHIC] [TIFF OMITTED] T0191.026
    
    [GRAPHIC] [TIFF OMITTED] T0191.027
    
    [GRAPHIC] [TIFF OMITTED] T0191.028
    
    [GRAPHIC] [TIFF OMITTED] T0191.029
    
    [GRAPHIC] [TIFF OMITTED] T0191.030
    
    [GRAPHIC] [TIFF OMITTED] T0191.031
    
    [GRAPHIC] [TIFF OMITTED] T0191.032
    
    [GRAPHIC] [TIFF OMITTED] T0191.033
    
    [GRAPHIC] [TIFF OMITTED] T0191.034
    
    [GRAPHIC] [TIFF OMITTED] T0191.035
    
    [GRAPHIC] [TIFF OMITTED] T0191.036
    
    [GRAPHIC] [TIFF OMITTED] T0191.037
    
    [GRAPHIC] [TIFF OMITTED] T0191.038
    
    [GRAPHIC] [TIFF OMITTED] T0191.039
    
    [GRAPHIC] [TIFF OMITTED] T0191.040
    
    [GRAPHIC] [TIFF OMITTED] T0191.041
    
    [GRAPHIC] [TIFF OMITTED] T0191.042
    
    [GRAPHIC] [TIFF OMITTED] T0191.043
    
    [GRAPHIC] [TIFF OMITTED] T0191.044
    
    [GRAPHIC] [TIFF OMITTED] T0191.045
    
    [GRAPHIC] [TIFF OMITTED] T0191.046
    
    [GRAPHIC] [TIFF OMITTED] T0191.047
    
    [GRAPHIC] [TIFF OMITTED] T0191.048
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 19, 2013

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T0191.049
    
    [GRAPHIC] [TIFF OMITTED] T0191.050
    
    [GRAPHIC] [TIFF OMITTED] T0191.051
    
    [GRAPHIC] [TIFF OMITTED] T0191.052
    
    [GRAPHIC] [TIFF OMITTED] T0191.053
    
    [GRAPHIC] [TIFF OMITTED] T0191.054
    
    [GRAPHIC] [TIFF OMITTED] T0191.055
    
    [GRAPHIC] [TIFF OMITTED] T0191.056
    
    [GRAPHIC] [TIFF OMITTED] T0191.057
    
    [GRAPHIC] [TIFF OMITTED] T0191.058
    
    [GRAPHIC] [TIFF OMITTED] T0191.059
    
    [GRAPHIC] [TIFF OMITTED] T0191.060
    
    [GRAPHIC] [TIFF OMITTED] T0191.061
    
    [GRAPHIC] [TIFF OMITTED] T0191.062
    
    [GRAPHIC] [TIFF OMITTED] T0191.063
    
    [GRAPHIC] [TIFF OMITTED] T0191.064
    
    [GRAPHIC] [TIFF OMITTED] T0191.065
    
    [GRAPHIC] [TIFF OMITTED] T0191.066
    
    [GRAPHIC] [TIFF OMITTED] T0191.067
    
    [GRAPHIC] [TIFF OMITTED] T0191.068
    
    [GRAPHIC] [TIFF OMITTED] T0191.069
    
    [GRAPHIC] [TIFF OMITTED] T0191.070
    
    [GRAPHIC] [TIFF OMITTED] T0191.071
    
    [GRAPHIC] [TIFF OMITTED] T0191.072
    
    [GRAPHIC] [TIFF OMITTED] T0191.073
    
    [GRAPHIC] [TIFF OMITTED] T0191.074
    
    [GRAPHIC] [TIFF OMITTED] T0191.075
    
    [GRAPHIC] [TIFF OMITTED] T0191.076
    
    [GRAPHIC] [TIFF OMITTED] T0191.077
    
    [GRAPHIC] [TIFF OMITTED] T0191.078
    
    [GRAPHIC] [TIFF OMITTED] T0191.079
    
    [GRAPHIC] [TIFF OMITTED] T0191.080
    
    [GRAPHIC] [TIFF OMITTED] T0191.081
    
    [GRAPHIC] [TIFF OMITTED] T0191.082
    
    [GRAPHIC] [TIFF OMITTED] T0191.083
    
    [GRAPHIC] [TIFF OMITTED] T0191.084
    
    [GRAPHIC] [TIFF OMITTED] T0191.085
    
    [GRAPHIC] [TIFF OMITTED] T0191.086
    
    [GRAPHIC] [TIFF OMITTED] T0191.087
    
    [GRAPHIC] [TIFF OMITTED] T0191.088
    
    [GRAPHIC] [TIFF OMITTED] T0191.089
    
    [GRAPHIC] [TIFF OMITTED] T0191.090
    
    [GRAPHIC] [TIFF OMITTED] T0191.091
    
    [GRAPHIC] [TIFF OMITTED] T0191.092
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 19, 2013

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. 1) Drs. Payne and Krepinevich: Do you wish to comment 
on the material in the questions submitted to Dr. Blair noted below?
    Dr. Blair: the Global Zero report you led stated that:
    ``(page 16) The reductions and de-alerting proposed under this 
illustrative plan could be carried out in unison by the United States 
and Russia through reciprocal presidential directives, negotiated in 
another round of bilateral arms reduction talks, or implemented 
unilaterally.''
    In his confirmation hearing to be Secretary of Defense, then-
Senator Hagel stated: ``I don't--I do not agree with any recommendation 
that would unilaterally take any action to further reduce our nuclear 
warheads and our capability . . . Every--every option that we must look 
at, every action we must take to reduce warheads or anything should be 
bilateral. It should be verifiable. It should be negotiated.''
    a. Dr. Blair, Do you agree with the Global Zero report or Secretary 
Hagel?
    b. Why is verification important? Are you aware of any precedent 
for verification that isn't treaty based?
    c. Is verification important because we have to know if there's 
cheating?
    d. Dr. Blair, you cite the Presidential Nuclear Initiatives (PNIs) 
several times as an example of how further reductions, and actions like 
de-alerting, could be effectuated. Are you aware that Russia is not in 
compliance with those Initiatives, in other words, it is cheating? Does 
that change your endorsement of that approach?
    Dr. Payne. The authors of the Global Zero report, including Dr. 
Blair, state specifically (on pages 1, 16 and 18) that unilateral U.S. 
reductions should be considered an acceptable course of action.
    As noted in the question, the Presidential Nuclear Initiatives 
(PNIs) often are cited as examples of unilateral reductions. The PNIs 
were commitments by U.S. and Russian leaderships to extensive limits on 
their tactical nuclear weapons. According to considerable official 
Russian information, Russia is in violation of these commitments and 
has been so for years. A robust verification regime and vigorous U.S. 
response to Russian cheating that is discovered are essential to the 
integrity of any arms control process involving Russian strategic and 
tactical forces. In the absence of verification and compliance 
enforcement, Russia will violate such arms control agreements at its 
convenience. This has been the historical experience.
    Mr. Rogers. 2) Drs. Payne and Krepinevich: What comments would you 
have regarding the question to Dr. Blair noted below?
    Dr. Blair, you assert in the Global Zero report that ``mutual 
assured destruction (MAD) no longer occupies a central psychological or 
political space in the U.S.-Russian relationship.'' On the other hand, 
Vladimir Putin tells his people that ``[n]uclear weapons remain the 
main guarantee of Russia's sovereignty and its territorial integrity, 
it plays a key role in maintaining global and regional stability and 
balance''. Sir, which of you is right?
    Dr. Payne. Russia places more emphasis on nuclear deterrence now 
than it did during the Cold War. The Russian political and military 
leadership is absolutely clear in its public statements that nuclear 
deterrence remains its highest priority and that the United States and 
allies are Russia's number one enemy. Russia's vigorous nuclear 
modernization programs reflect these views.
    Mr. Rogers. 3) Drs. Payne and Krepinevich: What comments do you 
have regarding the question to Dr. Blair noted below?
    Dr. Blair, you state in the Global Zero report that ``the 
obligation to assure U.S. allies in Europe and Asia of American 
commitment to their defense and to extend deterrence to them would fall 
to U.S. strategic nuclear and conventional forces, which are amply 
capable of fulfilling it.'' Sir, why, in your estimate has NATO asked, 
three times in 4 years, for the U.S. to keep forward deployed nuclear 
weapons--a.k.a. tactical nuclear weapons--in Europe?
    Dr. Payne. NATO members have emphasized in the most recent open 
NATO consensus documents that nuclear deterrence is essential to NATO 
security and that the existing arrangement of U.S. nuclear weapons and 
Dual Capable Aircraft located in Europe are an essential element of 
NATO's deterrence posture. Several key NATO allies have openly 
expressed considerable concern over suggestions that the U.S. would 
withdraw nuclear weapons from Europe.
    Mr. Rogers. 4) Drs. Payne and Krepinevich: Do you wish to comment 
on the questions to Dr. Blair noted below?
    Dr. Blair: the Global Zero report states that we could partly 
offset our nuclear force with ``a stood-up alert missile defense and 
conventional force capability that is prompt and global, and that can 
function sufficiently well for 24-72 hours.''
    Excepting for the fact that the Russians hate both of these 
capabilities, and the Senate has traditionally been hostile to 
conventional prompt global strike, can you state how much it would cost 
to deploy these capabilities? How many missile defense interceptors do 
we need, for example, to counter Iran's thousands of short- and medium-
range ballistic missiles?
    a. How many would we need to defend Israel? How many would we need 
to defend Saudi Arabia? How many to defend the Emirate? How about all 
three combined?
    b. How about the conventional prompt global strike capability you 
describe?
    c. Is it possible that to develop and deploy these capabilities we 
wouldn't in fact save any money over the relatively cheap nuclear 
capability?
    Dr. Payne. Missile defense and conventional prompt global strike 
can add to U.S. deterrence capabilities. However, no one, including the 
authors of the Global Zero report, know if or to what degree nonnuclear 
forces can offset U.S. nuclear forces for deterrence. No one, including 
the authors of the Global Zero report, can predict the future 
functioning of deterrence in such detail. Available evidence suggests 
strongly that in some cases, U.S. nuclear weapons have been essential 
both for the deterrence of opponents and the assurance of allies. There 
is no evidence to suggest that the value of nuclear weapons for these 
purposes has declined. Indeed, contemporary statements of key allies 
demonstrate the continuing assurance requirement for U.S. nuclear 
forces. In addition, serious programs attempting to substitute 
conventional forces for nuclear deterrence purposes would likely entail 
greater costs than would be saved via the nuclear force reductions 
recommended in the Global Zero report.
    Mr. Rogers. 5) Drs. Payne and Krepinevich: Do you wish to comment 
on the questions to Dr. Blair noted below?
    Dr. Blair, I note that this Global Zero report goes into a great 
deal of detail on U.S. and Russia nuclear force levels. Can you please 
describe how it helps to deal with the threat of instability in 
Pakistan's nuclear program? Why have you invested so much time in 
dealing with relatively stable matters like U.S. and Russian nuclear 
forces, but, apparently none at all on matters like Pakistan's nuclear 
program?
    Dr. Payne. Placing strategic arms control negotiations with Russia 
as the central focus of U.S. nuclear policy and attention is an 
inheritance of the Cold War and an obsolete practice in the 
contemporary threat environment. More important are efforts to address 
Russian tactical nuclear weapons, Chinese and North Korean nuclear 
capabilities, and the Iranian nuclear program. To date, there is no 
apparent success in any of these, and the 2010 New START Treaty with 
Russia did not require any Russian deployed warhead or launcher 
reductions and has provided no apparent improvement in efforts to 
secure nonproliferation goals vis-a-vis North Korea, Iran or elsewhere.
    Mr. Rogers. 6) Drs. Payne and Krepinevich: do you wish to comment 
on the questions to Dr. Blair noted below?
    Dr. Blair, your Global Zero report calls for increased reliance on 
missile defenses and ``passive hardening'' to deter or defeat a 
regional adversary for 24 to 72 hours. Yet, you try to have it both 
ways by capping missile defenses to not agitate Russia and China.
    a. Please explain what you mean by ``hardening'' and 
``sheltering''? How expensive would bomb shelters to ride out North 
Korean or Iranian missile defenses be?
    b. How many missile defense interceptors would we need to ride out 
24 to 72 hours of attacks by Iran or North Korea?
    c. How do we balance this with reducing the theater missile defense 
program by 10 to 50 percent?
    d. How do we tell NATO that we are creating ``100 exclusion 
zones,'' as you propose, concerning the deployments of our missile 
defenses? How do you expect our Eastern European NATO allies would feel 
about that?
    Dr. Payne. The programs identified in the Global Zero report, 
including hardening and sheltering, missile defense, and advanced 
conventional weapons, if undertaken to provide an alternative to 
nuclear forces for deterrence, would likely cost far more than the 
savings that could be realized by the deep reduction in U.S. nuclear 
forces. The Nuclear Zero report gives only one side of the cost 
implications of its proposal by identifying only the potential saving 
from nuclear reductions. It does not provide any net assessment that 
includes the additional unavoidable costs of its missile defense and 
conventional force recommendations--thus it misleadingly points only to 
great cost savings. The notion of pushing ``100 exclusion zones'' 
within NATO is fanciful and would likely further degrade the U.S. 
ability to assure several key allies who already are wary of recent 
U.S. policy initiatives that appear to them to disadvantage their 
security.
    Mr. Rogers. 7) Drs. Payne and Krepinevich, why is a ``no first 
use'' policy a bad idea? Why have we never had one?
    Dr. Payne. A ``no first use'' policy would tell opponents that they 
need not fear the U.S. nuclear deterrent if they use chemical or 
biological weapons of mass destruction against the United States or 
allies. It also would tell U.S. allies that the U.S. nuclear umbrella 
is not available to protect them from chemical or biological weapons, 
or from attacks by an opponent with overwhelming conventional 
capabilities. As such, a U.S. ``no first use'' policy should degrade 
the U.S. capability to deter chemical and biological weapons threats, 
and it would cause enormous concern among at least some key allies 
about the credibility of the U.S. nuclear umbrella. In addition, it is 
far from clear what practical benefit this declaratory policy would 
provide. There is, for example, no evidence to suggest that it would 
contribute to U.S. nonproliferation goals or inspire others to ``follow 
the U.S. lead.''
    Mr. Rogers. 8) Would you please describe China's so-called ``no 
first use'' policy? Is it as solid as some would have us believe? Why 
does that matter?
    Dr. Payne. China's ``no first use'' policy is highly ambiguous with 
regard to its actual meaning. This is not by accident. Chinese 
officials state that maintaining strategic ambiguity regarding China's 
nuclear policies and forces is done intentionally. Even as stated 
openly by the Chinese, there are numerous conditions and caveats 
pertaining to the ``no first use'' policy. No one should expect this 
declaratory policy to affect China's actual planning for the use of 
nuclear weapons. This is important because U.S. planning should take 
into account the potential for China's first use of nuclear weapons in 
the event of a severe military crisis in Asia, particularly if the 
crisis involves Taiwan.
    Mr. Rogers. 9) Please describe China's nuclear program, China's 
aspirations as a nuclear power, and what that means for the Global Zero 
recommendations in terms of extended deterrence in that region?
    Dr. Payne. According to open reports, China has vigorous nuclear 
force modernization programs. China's aspiration is for a nuclear 
capability that is at least adequate to deter the United States from 
responding forcefully to Chinese political and military initiatives in 
Asia. For example, China has most recently disputed Japan's sovereignty 
over Okinawa. These initiatives could easily lead to crisis 
confrontations with the United States and U.S. allies. The Global Zero 
report's stated presumption that nuclear deterrence is not, and will 
not be pertinent to U.S. relations with China is a hope expressed as a 
truth. The report's recommendations threaten to undermine the U.S. 
capability to deter China and the U.S. capability to assure allies who 
feel threatened by China. Against these potential risks, there are no 
plausible benefits for U.S. extended deterrence likely to be realized 
from its recommended policies.
    Mr. Rogers. 10) Drs. Payne and Krepinevich: Would you care to 
respond to any of the questions noted below?
    Dr. Blair: Your report, Modernizing U.S. Nuclear Strategy, Force 
Structure and Posture, states that ``Precision-guided conventional 
munitions hold at risk nearly the entire spectrum of potential targets, 
and they are useable.'' (p.2)
    Given your assertion that conventional weapons can address ``nearly 
the entire spectrum of potential targets'' addressed by nuclear 
weapons, it seems reasonable to assume that such weapons should become 
part of nuclear arms control negotiations.
    a. Do you agree? If not, why not?
    b. How many of these systems do we need to hold ``nearly the entire 
spectrum of potential targets'' at risk? How much would that cost and 
when could we deploy them?
    c. As you know, Congress, the Senate in particular, has never been 
particularly willing to fund conventional prompt global strike 
capabilities. How does our inability to develop and deploy them affect 
your illustrated reduction scenario?
    Dr. Payne. According to the Global Zero report, U.S. advanced 
conventional weapons can hold at risk only a fraction of the targets 
traditionally assigned to U.S. nuclear forces (page 11). And, given the 
prospective cost of these systems and the cost of the support 
infrastructure necessary for these systems, any plan to substitute them 
for nuclear deterrence forces is almost certain to cost more than the 
savings possible via their substitution.
    Advanced conventional forces can, nevertheless, contribute to 
deterrence by expanding the threat options available to a president; 
they should not be captured by arms control agreements. Unfortunately, 
the administration's New START Treaty already places limits on these 
systems. Moreover, Russia insists on further restrictions on advanced 
conventional strike capabilities as a condition for follow-on 
negotiations on reducing nuclear arms.
    Mr. Rogers. 11) Dr. Payne: Why do you say that the flexibility and 
resilience of the U.S. arsenal may be key for deterrence?
    Dr. Payne. The flexibility and resilience of the U.S. nuclear 
arsenal may be key to U.S. deterrence effectiveness because the 
contemporary threat environment is diverse and shifting in terms of 
threats, opposing leaderships, contexts, and stakes. Requirements for 
deterrence effectiveness, correspondingly, are likely to vary greatly; 
one size and type of nuclear deterrent is unlikely to provide the type 
of credible deterrent effect needed to address a wide spectrum of 
plausible severe threats. Consequently, the U.S. arsenal must be 
sufficiently flexible and resilient to adopt U.S. deterrence 
capabilities to an extremely diverse threat environment. In short, the 
flexibility and resilience of the U.S. arsenal is likely to be a key to 
U.S. deterrence effectiveness. Those qualities of the U.S. nuclear 
arsenal are related directly to its size and diversity and would be 
threatened by the recommendations of the Global Zero report.
    Mr. Rogers. 12) Dr. Payne: How is it that these deterrence 
qualities (flexibility and resilience) are linked to the size and 
diversity of U.S. forces?
    Dr. Payne. The flexibility and resilience of U.S. deterrence forces 
are linked directly to the size and diversity of the U.S. nuclear 
arsenal. The spectrum of possible U.S. nuclear threat options will 
depend on the variety of weapons and weapon platforms available. And, a 
large, diverse arsenal simply permits a wider array of deterrence 
threat options. Similarly, a large, diverse arsenal provides a greater 
variety of weapons and platforms with which to adopt to the shifting 
deterrence requirements of an ever-changing threat environment. If the 
future were fixed and benign, perhaps a small, fixed nuclear arsenal 
could be known to be adequate. But the future is not fixed and the 
emerging threat environment hardly appears to be benign. Consequently, 
flexibility and resilience are likely key ingredients to effective 
deterrence, and directly related to the size and diversity of the U.S. 
arsenal.
    Mr. Rogers. 13) Dr. Payne: Do you have any recommendations 
regarding the number of U.S. forces needed for the requisite level of 
force flexibility and resilience?
    Dr. Payne. Yes. There are three benchmarks. First, the U.S. nuclear 
triad of launchers--bombers, ICBMs, and submarine-launched missiles--is 
a source of great flexibility and resilience for the U.S. nuclear 
arsenal. This is why the bipartisan Congressional Strategic Posture 
Commission emphasized the need to sustain the triad in its 2009 
consensus report.
    Second, following considerable analysis of the question, the 2001 
NPR identified a range of 1700-2200 operationally deployed weapons and 
preservation of the triad as adequate for the needed flexibility and 
resilience.
    Similarly, in 2010, Gen. Kevin Chilton said in open testimony that 
given this need for flexibility, he could accept no lower ceiling on 
U.S. deployed strategic nuclear forces than that of the 2010 New START 
Treaty, i.e., 1550. In doing so, he added elsewhere that the Treaty's 
bomber counting rules actually allowed a greater number of weapons than 
1550, and that this factor was important in his acceptance of the 
ceiling.
    The threat environment has only become more complex and dangerous 
since those numbers were identified. There has been no apparent basis 
for concluding that flexibility and resilience are now somehow less 
important or available with fewer weapons and launchers. In fact, the 
threat environment appears to be heading in darker directions.
    Mr. Rogers. 14) Dr. Payne: Why do you conclude that deep nuclear 
reductions could degrade the deterrence of opponents?
    Dr. Payne. First, deep U.S. nuclear reductions will pressure the 
U.S. to move its deterrence threats to targets that are vulnerable and 
relatively few in number. Consequently, most proponents of deep nuclear 
reductions identify an opponent's soft civilian targets as the basis 
for the U.S. minimal deterrent threat. However, given the well-known 
U.S. desire to minimize civilian casualties, some opponents are likely 
to see such a U.S. deterrent threat as incredible for most all 
plausible contingencies. Some opponents have expressed this view 
openly. In addition, if the opponent is armed with a nuclear or 
biological arsenal, it may be particularly incredible for the U.S. to 
threaten to respond against that opponent's soft civilian targets given 
the opponent's likely capability to counter reply against U.S. 
vulnerable civilian targets. The deterrent threat that the U.S. would 
engage in a mutual process of destroying civilian targets may simply be 
an incredible U.S. deterrent as perceived by at least some opponents, 
and thus an ineffective deterrent. It is not a prospect that should be 
encouraged by U.S. policy.
    Second, deep nuclear reductions would likely reduce the flexibility 
and resilience of the U.S. arsenal, particularly if it led to 
elimination of the triad, as is likely. This would increase the 
prospects for deterrence failure because the U.S. might not have the 
number and/or diversity of nuclear forces necessary for deterrence 
purposes on those occasions when nuclear deterrence would be necessary 
to preserve peace or limit escalation.
    Third, a very small U.S. nuclear arsenal almost certainly would be 
more vulnerable to attack by an opponent's covertly or overtly deployed 
forces. An effective U.S. deterrent force is one that does not invite 
attack upon itself by appearing vulnerable to enemy attack. Such a 
condition could encourage an opponent to strike first in a crisis when 
it otherwise would not consider such a strategy, and thereby degrade 
deterrence. Small U.S. numbers would, in this sense, be 
``destabilizing.''
    Fourth, a very small and thus more vulnerable U.S. nuclear arsenal 
could inspire nuclear arms competition by lowering the bar for 
opponents to acquire a capability to threaten the survivability of the 
U.S. deterrent. The U.S. forces recommended in the Global Zero report, 
for example, would leave the bulk of U.S. deployed strategic nuclear 
forces vulnerable to a very small number of enemy nuclear weapons. Such 
a U.S. arsenal could encourage opponents to move toward covert 
deployments and/or noncompliance with arms control measures for the 
same reason.
    Mr. Rogers. 15) Dr. Payne: Why do you conclude that deep nuclear 
reductions could degrade the assurance of allies?
    Dr. Payne. Several U.S. allies, notably South Korea and Japan, 
already are deeply concerned that the U.S. drive to denuclearize is not 
reciprocated by the neighboring countries that pose nuclear-armed 
threats to them. They fear that further U.S. nuclear reductions simply 
will further degrade the credibility of the U.S. extended deterrent 
that is key to their security. As a consequence, some senior leaders in 
these allied countries now question the continued reliability of the 
U.S. ``nuclear umbrella'' as never before. They see the robustness of 
the U.S. nuclear arsenal and declared U.S. deterrence policy as 
critical to their own security, and thus are particularly disturbed by 
U.S. moves to denuclearize without corresponding movement that reduces 
the threats they face. The blatant fact that U.S. denuclearization 
appears to have no moderating effect on North Korean, Chinese, Iranian 
or Russian nuclear programs has led to the degradation of the important 
U.S. strategic goal of providing security assurance to some allies.
    Mr. Rogers. 16) Dr. Payne: Why do you conclude that deep reductions 
could actually promote nuclear proliferation?
    Dr. Payne. Further deep U.S. nuclear reductions will deepen the 
concern already apparent among some key allies that the U.S. nuclear 
umbrella is losing credibility. Further U.S. deep nuclear reductions 
will compel some of these key allies to reconsider their commitment to 
their current nonnuclear status. This is not speculation; some allied 
political leaders already are expressing precisely these views. 
Consequently, further U.S. deep nuclear reductions could easily 
provoke, not prevent, further nuclear proliferation.
    Mr. Rogers. 17) Dr. Payne: Why do you conclude that deep nuclear 
reductions could actually lead to a need to increase U.S. defense 
spending?
    Dr. Payne. The savings that would be available via even deep 
reductions in the number of U.S. nuclear weapons would not be 
substantial, as was most recently observed in open testimony by Dr. Don 
Cook, a senior official at NNSA. This is so because the costs of 
nuclear weapons generally are not driven directly by the number of 
nuclear weapons: a substantial reduction in warhead numbers would not 
yield similarly substantial savings. The potential for savings would 
come largely from abandonment of one or more legs of the triad. 
However, deep nuclear reductions in forces and launchers would 
necessitate a substantial expansion of U.S. advanced conventional 
weapons and improvement or replacement of some key enabling systems. 
The cost of doing so would almost certainly be more than the savings 
that could be realized by moving to a nuclear dyad, as recommended in 
the Global Zero report.
    Mr. Rogers. 18) Dr. Payne: Why do you conclude that nuclear 
deterrence could contribute to countering terrorism?
    Dr. Payne. Historical evidence shows with no doubt that some 
terrorists organizations can be deterred indirectly on at least some 
occasions by deterring state sponsors of terror from providing support 
to their terrorist clients. There is no reason whatsoever to conclude 
that these state sponsors of terrorism, such as North Korea and Iran, 
are immune to U.S. nuclear deterrence threats. Consequently, the 
assertion that U.S. nuclear capabilities are irrelevant to terrorism is 
common but contrary to evidence and logic.
    Mr. Rogers. 19) Dr. Payne: Why do you doubt that U.S. advanced 
conventional forces can substitute for nuclear forces for deterrence 
and assurance purposes?
    Dr. Payne. Advanced U.S. conventional forces and missile defense 
can contribute to deterrence. However, historical and anthropological 
studies indicate that nuclear weapons can provide unique deterrence 
effect because opponents perceive them as promising incalculable and 
unpredictable punishment for aggression against the U.S. and allies. 
Also, the percentage of casualties (of the global population) due to 
warfare calculated over centuries shows a dramatic and unprecedented 
drop following the introduction of nuclear weapons and nuclear 
deterrence. This reflects the historical fact that conventional 
deterrence fails catastrophically with some regularity. This has not 
been the case for nuclear deterrence, perhaps because nuclear weapons 
uniquely present would-be aggressors with incalculable, unpredictable 
punishment. The assertion that conventional weapons will substitute 
reliably for nuclear forces for deterrence purposes is a hope/wish that 
does not reflect available evidence.
    Mr. Rogers. 20) Drs. Payne and Krepinevich, would you care to 
comment on the questions to Dr. Blair noted below?
    The President said at the State of the Union address last month 
that, ``we will engage Russia to seek further reductions in our nuclear 
arsenals . . . because our ability to influence others depends on our 
willingness to lead.''
    a. Dr. Blair, would you please explain just who has been following 
the President's leadership? Put another way, with our unilateral 
reductions under the New START treaty, who has followed us in reducing? 
As you know, Russia was already below two of the three ``central 
limits'' of the New START treaty upon entry into force of the treaty.
    Dr. Payne. There is little or no evidence that U.S. 
denuclearization has any positive impact on nuclear nonproliferation 
efforts or more formal arms control negotiations. No country appears to 
be following the U.S. lead in this regard--quite the contrary. In 
addition, there is available evidence that suggests that further deep 
U.S. nuclear reductions will motivate some allies and friends in the 
direction of nuclear proliferation. The linkage suggested by President 
Obama is common expression of hope unsupported by available evidence.
    Mr. Rogers. 21) Drs. Payne and Krepinevich, would you care to 
comment on the questions to Dr. Blair noted below?
    Dr. Blair, in the recent Global Zero report, it was stated that 
``this illustrative agenda with its deep cuts and de-alerting would 
strongly validate the Non-Proliferation Treaty and help preserve it in 
the face of challenges by North Korea, Iran and other prospective 
proliferators.''
    a. Can you describe in detail, and with specificity, how further 
nuclear reductions by the United States and Russia (if Russia is 
interested) will strengthen the Non-Proliferation Treaty and deal with 
the nuclear threats of Iran and North Korea? Specifically, what will 
other states (be specific as to which states) do to stop the spread of 
nuclear weapons if we only reduce our nuclear weapons further.
    Dr. Payne. There is little or no evidence suggesting the validity 
of this linkage claimed in the Global Zero report. Instead, 
considerable evidence suggests that further deep U.S. nuclear 
reductions could hasten the collapse of the NPT by motivating U.S. 
friends and allies to move toward their own independent nuclear 
capabilities. In addition, the frequent assertion that the NPT mandates 
U.S. deep nuclear reductions independent of global movement toward 
general and complete disarmament is false.
    Mr. Rogers. 22) Drs. Payne and Krepinevich: would you care to 
comment on the questions to Dr. Blair noted below?
    Dr. Blair: Do you agree with the finding of the 2010 Nuclear 
Posture Review that ``fundamental changes in the international security 
environment in recent years--including the growth of unrivaled U.S. 
conventional military capabilities, major improvements in missile 
defenses, and the easing of Cold War rivalries--enable us to fulfill 
those objectives at significantly lower nuclear force levels and with 
reduced reliance on nuclear weapons''?
    a. So how do the Budget Control Act and Sequestration change this 
calculus? Combined, we are spending $1 trillion less over a decade on 
procurement, acquisition, operations and maintenance. For example, we 
can't sortie or refuel aircraft carriers under the President's 
sequester. Doesn't this mean, if the logic of the NPR holds true, that, 
the assumption we can rely on our conventional capabilities and 
conventional deterrent, should be reconsidered?
    Dr. Payne. First, available historical evidence suggests strongly 
that conventional weapons can contribute to deterrence, but not that 
they can replace nuclear weapons for the needed deterrent effect on at 
least some occasions. In some cases, it is implausible to expect 
conventional forces to provide the necessary lethality or psychological 
effect needed for deterrence purposes.
    Second, if U.S. policy, nevertheless, is to rely on conventional 
forces for deterrence, the number and types of conventional forces 
necessary, and the necessary supporting infrastructure, would likely be 
far more expensive than modernization of the triad and the nuclear 
weapons infrastructure. In any event, there is little evidence to 
suggest that the U.S. will invest in these conventional force programs.

    Mr. Rogers. 23) Drs. Payne and Krepinevich: Do you wish to comment 
on the material in the questions submitted to Dr. Blair noted below?
    Dr. Blair: the Global Zero report you led stated that:
    ``(page 16) The reductions and de-alerting proposed under this 
illustrative plan could be carried out in unison by the United States 
and Russia through reciprocal presidential directives, negotiated in 
another round of bilateral arms reduction talks, or implemented 
unilaterally.''
    In his confirmation hearing to be Secretary of Defense, then-
Senator Hagel stated: ``I don't--I do not agree with any recommendation 
that would unilaterally take any action to further reduce our nuclear 
warheads and our capability . . . Every--every option that we must look 
at, every action we must take to reduce warheads or anything should be 
bilateral. It should be verifiable. It should be negotiated.''
    a. Dr. Blair, Do you agree with the Global Zero report or Secretary 
Hagel?
    b. Why is verification important? Are you aware of any precedent 
for verification that isn't treaty based?
    c. Is verification important because we have to know if there's 
cheating?
    d. Dr. Blair, you cite the Presidential Nuclear Initiatives (PNIs) 
several times as an example of how further reductions, and actions like 
de-alerting, could be effectuated. Are you aware that Russia is not in 
compliance with those Initiatives, in other words, it is cheating? Does 
that change your endorsement of that approach?
    Dr. Krepinevich. I have no additional comments.
    Mr. Rogers. 24) Drs. Payne and Krepinevich: What comments would you 
have regarding the question to Dr. Blair noted below?
    Dr. Blair, you assert in the Global Zero report that ``mutual 
assured destruction (MAD) no longer occupies a central psychological or 
political space in the U.S.-Russian relationship.'' On the other hand, 
Vladimir Putin tells his people that ``[n]uclear weapons remain the 
main guarantee of Russia's sovereignty and its territorial integrity, 
it plays a key role in maintaining global and regional stability and 
balance''. Sir, which of you is right?
    Dr. Krepinevich. I have no additional comments.
    Mr. Rogers. 25) Drs. Payne and Krepinevich: What comments do you 
have regarding the question to Dr. Blair noted below?
    Dr. Blair, you state in the Global Zero report that ``the 
obligation to assure U.S. allies in Europe and Asia of American 
commitment to their defense and to extend deterrence to them would fall 
to U.S. strategic nuclear and conventional forces, which are amply 
capable of fulfilling it.'' Sir, why, in your estimate has NATO asked, 
three times in 4 years, for the U.S. to keep forward deployed nuclear 
weapons--a.k.a. tactical nuclear weapons--in Europe?
    Dr. Krepinevich. It is not possible to know for certain why 
European leaders have repeatedly requested that the United States 
maintain tactical nuclear weapons on their territory. Nevertheless, it 
is likely that three factors in explain this point of view. First, 
forward-deployed tactical nuclear weapons have traditionally 
underpinned extended deterrence by providing limited nuclear options 
that could be exercised in response to conventional or nuclear 
aggression. During the Cold War, for example, Western conventional 
military forces were considered insufficient on their own to deter or 
counter an assault by the Warsaw Pact, because the Soviets and their 
satellites enjoyed a sizeable quantitative advantage. At the same time, 
U.S. strategic nuclear forces were not considered a credible deterrent 
to an invasion, because their use would trigger a reprisal against 
American targets by Soviet strategic forces. Second, although the Cold 
War is long-since over, these weapons continue to provide an important 
hedge against the prospect that relations between NATO and the Russian 
Federation could deteriorate in the future. Moreover, once withdrawn, 
it could be extremely difficult to redeploy tactical nuclear weapons in 
Europe given a confluence of fiscal, political, and operational-
military considerations. Third, if the United States further reduces 
its conventional military presence in Europe, and if European nations 
fail to increase their own defense spending, then forward-deployed 
tactical nuclear weapons would arguably become the most important 
element of the alliance, and the key factor that ensures the security 
of America's NATO partners--even in the absence of a near-term threat 
from Russia.
    Mr. Rogers. 26) Drs. Payne and Krepinevich: Do you wish to comment 
on the questions to Dr. Blair noted below?
    Dr. Blair: the Global Zero report states that we could partly 
offset our nuclear force with ``a stood-up alert missile defense and 
conventional force capability that is prompt and global, and that can 
function sufficiently well for 24-72 hours.''
    Excepting for the fact that the Russians hate both of these 
capabilities, and the Senate has traditionally been hostile to 
conventional prompt global strike, can you state how much it would cost 
to deploy these capabilities? How many missile defense interceptors do 
we need, for example, to counter Iran's thousands of short- and medium-
range ballistic missiles?
    a. How many would we need to defend Israel? How many would we need 
to defend Saudi Arabia? How many to defend the Emirate? How about all 
three combined?
    b. How about the conventional prompt global strike capability you 
describe?
    c. Is it possible that to develop and deploy these capabilities we 
wouldn't in fact save any money over the relatively cheap nuclear 
capability?
    Dr. Krepinevich. I have no additional comments.
    Mr. Rogers. 27) Drs. Payne and Krepinevich: Do you wish to comment 
on the questions to Dr. Blair noted below?
    Dr. Blair, I note that this Global Zero report goes into a great 
deal of detail on U.S. and Russia nuclear force levels. Can you please 
describe how it helps to deal with the threat of instability in 
Pakistan's nuclear program? Why have you invested so much time in 
dealing with relatively stable matters like U.S. and Russian nuclear 
forces, but, apparently none at all on matters like Pakistan's nuclear 
program?
    Dr. Krepinevich. I have no additional comments.
    Mr. Rogers. 28) Drs. Payne and Krepinevich: do you wish to comment 
on the questions to Dr. Blair noted below?
    Dr. Blair, your Global Zero report calls for increased reliance on 
missile defenses and ``passive hardening'' to deter or defeat a 
regional adversary for 24 to 72 hours. Yet, you try to have it both 
ways by capping missile defenses to not agitate Russia and China.
    a. Please explain what you mean by ``hardening'' and 
``sheltering''? How expensive would bomb shelters to ride out North 
Korean or Iranian missile defenses be?
    b. How many missile defense interceptors would we need to ride out 
24 to 72 hours of attacks by Iran or North Korea?
    c. How do we balance this with reducing the theater missile defense 
program by 10 to 50 percent?
    d. How do we tell NATO that we are creating ``100 exclusion 
zones,'' as you propose, concerning the deployments of our missile 
defenses? How do you expect our Eastern European NATO allies would feel 
about that?
    Dr. Krepinevich. I have no additional comments.
    Mr. Rogers. 29) Drs. Payne and Krepinevich, why is a ``no first 
use'' policy a bad idea? Why have we never had one?
    Dr. Krepinevich. The United States has traditionally preserved the 
option of being the first side to use nuclear weapons during a crisis 
or conflict for several reasons: to deter or defeat a conventional 
military attack that overwhelmed U.S. and allied forces, namely a 
Warsaw Pact invasion of Western Europe; to launch a damage-limiting 
first strike in response to unambiguous warning of an impending nuclear 
attack; and to deter or retaliate for an attack with chemical or 
biological weapons. Although Washington's decision to forgo a ``no 
first use'' pledge was a product of the Cold War, and although the 
threat of a massive conventional assault that could only be stopped by 
using nuclear weapons has receded over the past two decades, there are 
still reasons to preserve existing policy. For example, the possibility 
of a biological or chemical attack, particularly by a rogue nation, 
still remains--and could increase in the years ahead. The United States 
also requires the ability to hold at risk hardened or deeply buried 
targets that cannot be reliably destroyed by conventional munitions. As 
a result, publicly adopting a no first use policy could weaken 
deterrence, undermine extended deterrence commitments to frontline U.S. 
allies, and remove options for countering hostile regional powers.
    Mr. Rogers. 30) Would you please describe China's so-called ``no 
first use'' policy? Is it as solid as some would have us believe? Why 
does that matter?
    Dr. Krepinevich. China has long pledged that it would not be the 
first nation to use nuclear weapons in a crisis or conflict. 
Nevertheless, there has been speculation that its definition of ``no 
first use'' might be different and considerably narrower than an 
American one. According to most recent report on China's military power 
released by the Department of Defense, ``there is some ambiguity over 
the conditions under which China's NFU [No First Use] policy would 
apply, including whether strikes on what China considers its own 
territory, demonstration strikes, or high-altitude bursts would 
constitute first use.'' Likewise, there has been recurring speculation 
over the past several years that China might adapt or abandon this 
pledge in the future. More generally, there are reasons to doubt that 
commitments made during peacetime would be upheld in the event of war. 
Gaining greater insight into this issue is critical, therefore, because 
American actions in a future crisis with China would undoubtedly be 
shaped by Washington's assessment of the likelihood of escalation.
    Mr. Rogers. 31) Please describe China's nuclear program, China's 
aspirations as a nuclear power, and what that means for the Global Zero 
recommendations in terms of extended deterrence in that region?
    Dr. Krepinevich. According to publicly available sources, China's 
nuclear arsenal consists of approximately 240 warheads and 140 silo-
based and road-mobile ballistic missiles--including intercontinental 
and medium-range ballistic missiles. There has been speculation, 
however, that the size of its arsenal might be larger, perhaps over a 
thousand weapons. What is certain is that Beijing is modernizing its 
nuclear capabilities, to include fielding new road mobile ICBMs, 
several ballistic missile submarines, and a new submarine-launched 
ballistic missile. Collectively, these steps will enable Beijing to 
field a much more survivable nuclear arsenal. Because China appears 
more intent on making qualitative improvements to its arsenal than 
engaging in a major quantitative buildup, any effort to eliminate 
nuclear weapons would almost certainly require large unilateral or 
bilateral reductions by the United States and Russia before China would 
be willing to cap or reduce its own nuclear capabilities. In short, 
approximate parity between these three powers would be a prerequisite 
for any agreement among them--a position that the Global Zero 
organization explicitly acknowledges and accepts. An issue that merits 
further analysis, therefore, is whether and to what extent American 
extended deterrence commitments to its allies in East Asia will remain 
viable if the relative gap between U.S. and Chinese nuclear forces were 
to shrink considerably. Furthermore, in a world in which China, Russia 
and the United States each had the same number of nuclear weapons, it 
would not be possible for the United States to maintain parity against 
the other two powers. It would therefore be important to understand the 
dynamics of a nuclear competition in which the United States could find 
itself confronting an alliance of China and Russia.
    Mr. Rogers. 32) Drs. Payne and Krepinevich: Would you care to 
respond to any of the questions noted below?
    Dr. Blair: Your report, Modernizing U.S. Nuclear Strategy, Force 
Structure and Posture, states that ``Precision-guided conventional 
munitions hold at risk nearly the entire spectrum of potential targets, 
and they are useable.'' (p.2)
    Given your assertion that conventional weapons can address ``nearly 
the entire spectrum of potential targets'' addressed by nuclear 
weapons, it seems reasonable to assume that such weapons should become 
part of nuclear arms control negotiations.
    a. Do you agree? If not, why not?
    b. How many of these systems do we need to hold ``nearly the entire 
spectrum of potential targets'' at risk? How much would that cost and 
when could we deploy them?
    c. As you know, Congress, the Senate in particular, has never been 
particularly willing to fund conventional prompt global strike 
capabilities. How does our inability to develop and deploy them affect 
your illustrated reduction scenario?
    Dr. Krepinevich. If conventional precision-strike weapons were 
indeed a functional substitute for nuclear weapons, than this would 
suggest that the former should be included in future arms control 
negotiations over the latter--an outcome that could disproportionately 
favor other nations given the United States' advantage in conventional 
precision-strike munitions. It is far from clear, however, that 
conventional weapons can actually perform the identical functions as 
nuclear weapons. Despite their virtues, conventional weapons do not 
possess the same ability to hold at risk wide area, hardened, or deeply 
buried targets. This suggests that the United States cannot rely upon 
conventional weapons alone for deterrence and extended deterrence, and 
should avoid efforts to conflate conventional and nuclear forces in any 
future arms control negotiations.
    Mr. Rogers. 33) Drs. Payne and Krepinevich, would you care to 
comment on the questions to Dr. Blair noted below?
    The President said at the State of the Union address last month 
that, ``we will engage Russia to seek further reductions in our nuclear 
arsenals . . . because our ability to influence others depends on our 
willingness to lead.''
    a. Dr. Blair, would you please explain just who has been following 
the President's leadership? Put another way, with our unilateral 
reductions under the New START treaty, who has followed us in reducing? 
As you know, Russia was already below two of the three ``central 
limits'' of the New START treaty upon entry into force of the treaty.
    Dr. Krepinevich. The evidence to date provides grounds for 
skepticism that other nations will follow the U.S. lead if Washington 
engages in further nuclear reductions. Both the United States and 
Russia have made deep cuts in the size of their nuclear arsenals over 
the past two decades. Nevertheless, nuclear proliferation has 
continued: India, Pakistan, and North Korea have joined the nuclear 
``club;'' Syria and Iran have pursued the technical capabilities 
necessary to build nuclear weapons; all existing nuclear powers are 
modernizing their capabilities; and Pakistan and Russia appear to be 
lowering the barriers to nuclear use. In all likelihood, this can be 
explained by a simple observation: other nations' nuclear programs are 
not primarily a response to the size and shape of the U.S. nuclear 
arsenal, but rather to local rivalries, domestic political 
considerations, and U.S. conventional military superiority.
    Mr. Rogers. 34) Drs. Payne and Krepinevich, would you care to 
comment on the questions to Dr. Blair noted below?
    Dr. Blair, in the recent Global Zero report, it was stated that 
``this illustrative agenda with its deep cuts and de-alerting would 
strongly validate the Non-Proliferation Treaty and help preserve it in 
the face of challenges by North Korea, Iran and other prospective 
proliferators.''
    a. Can you describe in detail, and with specificity, how further 
nuclear reductions by the United States and Russia (if Russia is 
interested) will strengthen the Non-Proliferation Treaty and deal with 
the nuclear threats of Iran and North Korea? Specifically, what will 
other states (be specific as to which states) do to stop the spread of 
nuclear weapons if we only reduce our nuclear weapons further.
    Dr. Krepinevich. I respectfully refer back to my answer to question 
no. 33.
    Mr. Rogers. 35) Drs. Payne and Krepinevich: would you care to 
comment on the questions to Dr. Blair noted below?
    Dr. Blair: Do you agree with the finding of the 2010 Nuclear 
Posture Review that ``fundamental changes in the international security 
environment in recent years--including the growth of unrivaled U.S. 
conventional military capabilities, major improvements in missile 
defenses, and the easing of Cold War rivalries--enable us to fulfill 
those objectives at significantly lower nuclear force levels and with 
reduced reliance on nuclear weapons''?
    a. So how do the Budget Control Act and Sequestration change this 
calculus? Combined, we are spending $1 trillion less over a decade on 
procurement, acquisition, operations and maintenance. For example, we 
can't sortie or refuel aircraft carriers under the President's 
sequester. Doesn't this mean, if the logic of the NPR holds true, that, 
the assumption we can rely on our conventional capabilities and 
conventional deterrent, should be reconsidered?
    Dr. Krepinevich. The (questionable) assumption that conventional 
capabilities can substitute for nuclear weapons will be challenged by 
two trends that are already taking place. The first trend is the 
proliferation of conventional precision-strike systems, and in 
particular anti-access/area denial systems, which could make it 
increasingly difficult for the United States to project and sustain 
military power abroad. Put simply, arguments that the United States can 
decrease its reliance on nuclear weapons thanks to the growing 
sophistication of its conventional capabilities implicitly assume that 
the U.S. will maintain the near monopoly in conventional precision 
strike that it has enjoyed over the past two decades. But this 
advantage is waning, and conventional deterrence will likely erode as a 
result. The second trend now taking place is the changing fiscal 
environment, especially growing constraints on the U.S. defense budget 
highlighted by the Budget Control Act. Importantly, this development 
could limit Washington's ability to develop and field the types of 
capabilities that might be necessary to maintain (or regain) its 
conventional military advantage, from new long-range strike platforms, 
to additional nuclear-powered submarines, to more advanced missile 
defenses. In sum, the view that the United States can continue to 
reduce its reliance on nuclear weapons thanks to its conventional 
military superiority appears likely to be seriously tested in the years 
ahead.

    Mr. Rogers. 36) Dr. Blair: the Global Zero report you led stated 
that:
    ``(page 16) The reductions and de-alerting proposed under this 
illustrative plan could be carried out in unison by the United States 
and Russia through reciprocal presidential directives, negotiated in 
another round of bilateral arms reduction talks, or implemented 
unilaterally.''
    In his confirmation hearing to be Secretary of Defense, then-
Senator Hagel stated: ``I don't--I do not agree with any recommendation 
that would unilaterally take any action to further reduce our nuclear 
warheads and our capability . . . Every--every option that we must look 
at, every action we must take to reduce warheads or anything should be 
bilateral. It should be verifiable. It should be negotiated.''
    a. Dr. Blair, Do you agree with the Global Zero report or Secretary 
Hagel?
    b. Why is verification important? Are you aware of any precedent 
for verification that isn't treaty based?
    c. Is verification important because we have to know if there's 
cheating?
    d. Dr. Blair, you cite the Presidential Nuclear Initiatives (PNIs) 
several times as an example of how further reductions, and actions like 
de-alerting, could be effectuated. Are you aware that Russia is not in 
compliance with those Initiatives, in other words, it is cheating? Does 
that change your endorsement of that approach?
    Dr. Blair. 36a) The Global Zero report (May 2012) chaired by Gen. 
(ret.) James Cartwright and co-authored by him, then-Sen. Chuck Hagel, 
Amb. Thomas Pickering, Amb. Richard Burt and Gen. (ret.) Jack Sheehan 
considered a wide range of approaches to implementing the report's 
recommendations. The unanimous consensus of these commissioners was 
that the reductions and de-alerting should be negotiated with the 
Russians and should be verifiable. I quote Gen. (ret.) Cartwright and 
Amb. Pickerings' on-the-record words in clarifying this endorsement by 
the Global Zero commission:
    ``  The commissioners agreed that cuts to 900 total nuclear weapons 
in the U.S. and Russian arsenals should be the aim of the next round of 
bilateral New START follow-on negotiations. We call upon them to reach 
a comprehensive, verifiable agreement that provides for equal 
reductions by both sides down to a total force of 900 weapons that 
counts all types of strategic and nonstrategic weapons--with ``freedom 
to mix'' on both sides--and that counts every individual warhead or 
bomb whether deployed or held in reserve. We wish to emphasize that the 
commission does not call for unilateral cuts by the United States. Our 
view is that the only valid and useful approach should be to negotiate 
an agreement with the Russians.''
    Thus, the Global Zero report and the testimony of then-Sen. Hagel 
in his confirmation hearing to become Secretary of Defense are in 
complete agreement.
    36b) Verification is important to ensure compliance with nuclear 
arms reductions agreements, and thereby to help preserve strategic 
stability and build confidence in the dependability of the parties in 
future arms agreements. As the U.S. and Russian nuclear weapons 
stockpiles decrease, the importance of verification grows. As the 
answer to 36a) question above indicates, the Global Zero report calls 
for counting and verifying every individual warhead and bomb of all 
types, whether deployed or held in reserve. This represents a higher 
standard of verification than has been adopted in the past. Previously, 
no agreement has regulated the total size of our stockpiles, and the 
deep reductions in nuclear stockpiles made during the past two decades 
have thus been essentially unilateral in nature.
    Regarding the question whether there is any precedent for 
verification that is not treaty based, I would note two of them: First, 
no provisions for verification of the Moscow Treaty under President 
George W. Bush were explicitly provided for, though they were 
implicitly provided for by the previous START I Treaty that remained in 
force along with its extensive verification arrangements.
    Second, verification of the Presidential Nuclear Initiatives (PNIs) 
of 1991 is not treaty based, but rather relies on U.S. `national 
technical means of verification.' The 36d) question below asserts that 
Russia is not in compliance with these PNIs. Apparently, verification 
is possible in this case without treaty-based verification provisions 
in place.
    36c) Verification is important to determine whether a party is 
cheating intentionally; clarify whether there are other explanations 
for noncompliance such as different interpretations of treaty 
obligations; and rectify the situation.
    Also, verification is important to enable a party in full 
compliance with its treaty obligations to demonstrate its fidelity to 
the treaty and thereby boost the confidence of its treaty partners in 
its reliability. This confidence-building aspect, rather than the 
detection of cheating aspect, is the hallmark of the Nuclear Non-
Proliferation Treaty. It is similarly an important aspect of all 
nuclear arms reduction agreements.
    36d) While I believe that PNIs could offer an alternative approach 
to carrying out nuclear arms reductions or steps such as de-alerting, I 
generally do not endorse this approach over a treaty-based approach 
with adequate verification provided for by the treaty. However, in the 
specific case of the 1991 PNIs the purpose was not so much to 
facilitate an reduction in nuclear arms as it was to enable President 
Gorbachev to return to Russia and secure the thousands of Russian 
weapons dispersed in other countries that could have fallen into the 
hands of those countries or of unauthorized actors including terrorists 
or organized crime groups. Time was of the essence, and the PNIs were 
adopted and carried out in months instead of the many years that a 
formal arms negotiation would have taken to complete and implement. As 
I recall, no American leader was worried about exact compliance with 
these voluntary actions, while many Americans were concerned with the 
security of the weapons.
    As far as my awareness of Russian compliance with the PNIs of 1991, 
my own research based upon public sources suggests that Russia's 
pledges were largely kept but that the exceptions in which they were 
not kept are significant. I have not thoroughly assessed based on 
classified information the extent of compliance and noncompliance with 
these PNIs. I understand that the lack of verification provisions 
associated with the PNIs hampers our ability to determine exactly how 
compliant Russia is, but at the same time there is apparently 
sufficient independent verification on which to ground accusations of 
cheating.
    Mr. Rogers. 37) Dr. Blair, you assert in the Global Zero report 
that ``mutual assured destruction (MAD) no longer occupies a central 
psychological or political space in the U.S.-Russian relationship.'' On 
the other hand, Vladimir Putin tells his people that ``[n]uclear 
weapons remain the main guarantee of Russia's sovereignty and its 
territorial integrity, it plays a key role in maintaining global and 
regional stability and balance''. Sir, which of you is right?
    Dr. Blair. MAD remains a major technical factor in the security 
strategies of Russia as well as the United States, and nuclear 
deterrence is an especially important element in Russian security 
strategy vis-a-vis NATO, the United States, and China. However, the 
U.S., Russian, and Chinese nuclear arsenals have little or no utility 
in addressing the main threats facing these countries--nuclear 
terrorism, nuclear proliferation, and cyber warfare. The relevance of 
MAD after the end of the Cold War has declined precipitously as a 
technical matter, and moreover the perceived threat of nuclear 
aggression by any of these parties against any of the others is very 
much lower today compared to the Cold War period. Politically and 
psychologically, MAD no longer animates our relationships.
    Mr. Rogers. 38) Dr. Blair, you state in the Global Zero report that 
``the obligation to assure U.S. allies in Europe and Asia of American 
commitment to their defense and to extend deterrence to them would fall 
to U.S. strategic nuclear and conventional forces, which are amply 
capable of fulfilling it.'' Sir, why, in your estimate has NATO asked, 
three times in 4 years, for the U.S. to keep forward deployed nuclear 
weapons--a.k.a. tactical nuclear weapons--in Europe?
    Dr. Blair. NATO countries' positions on whether to keep U.S. 
tactical nuclear bombs forward deployed in Europe vary widely. Most of 
the leading countries of the alliance, e.g., Germany, support 
withdrawing (unilaterally if necessary) these weapons back to U.S. 
territory. Others, particularly the Baltic members of NATO, favor 
keeping them or, alternatively, getting U.S. military troops to be 
stationed on their territories as a tripwire for U.S. engagement in 
their defense in the event of a Russian incursion. In short, NATO is 
divided on the issue, and since NATO operates by consensus requiring 
unanimous support for any major policy change, the default position of 
NATO is that the tactical weapons remain in Europe. Since the U.S. 
tactical nukes (B-61 air-dropped bombs) have scant military utility, 
their main purpose is `alliance cohesion.' They primarily serve 
political purposes. Also, officially, NATO takes the position that as 
long as nuclear weapons remain in the world, NATO will remain a 
nuclear-armed alliance. (Of course the U.K. and France as well as the 
United States have strategic nuclear forces that ensure NATO will 
remain a nuclear alliance even if tactical weapons are removed from 
Europe.)
    Mr. Rogers. 39) Dr. Blair: the Global Zero report states that we 
could partly offset our nuclear force with ``a stood-up alert missile 
defense and conventional force capability that is prompt and global, 
and that can function sufficiently well for 24-72 hours.''
    Excepting for the fact that the Russians hate both of these 
capabilities, and the Senate has traditionally been hostile to 
conventional prompt global strike, can you state how much it would cost 
to deploy these capabilities? How many missile defense interceptors do 
we need, for example, to counter Iran's thousands of short- and medium-
range ballistic missiles?
    a. How many would we need to defend Israel? How many would we need 
to defend Saudi Arabia? How many to defend the Emirate? How about all 
three combined?
    b. How about the conventional prompt global strike capability you 
describe?
    c. Is it possible that to develop and deploy these capabilities we 
wouldn't in fact save any money over the relatively cheap nuclear 
capability?
    Dr. Blair. The report only goes so far as to say that these 
nonnuclear defenses and global strike systems could partly offset U.S. 
nuclear forces. Calculating the exact number and costs of these systems 
needed to perform various missions such as defending allies in the 
Middle East was beyond the scope of the Global Zero study.
    It is certainly possible that the costs of developing and deploying 
these capabilities could exceed the costs of maintaining nuclear forces 
for these missions. However, the primary goal of this substitution is 
to extend the amount of time available to terminate a conflict before 
having to resort to nuclear weapons.
    Mr. Rogers. 40) Dr. Blair, I note that this Global Zero report goes 
into a great deal of detail on U.S. and Russia nuclear force levels. 
Can you please describe how it helps to deal with the threat of 
instability in Pakistan's nuclear program? Why have you invested so 
much time in dealing with relatively stable matters like U.S. and 
Russian nuclear forces, but, apparently none at all on matters like 
Pakistan's nuclear program?
    Dr. Blair. The subject of the Global Zero report is U.S. nuclear 
force structure, posture and modernization. These matters are largely 
driven by Russia's forces, posture and modernization. Therefore the 
report focused on the U.S.-Russia nuclear policies and force levels. 
Also, the report's purpose was to illustrate an alternative U.S. force 
structure and posture on the assumption that further deep cuts in U.S. 
and Russian forces would be taken in the next round of nuclear arms 
reductions.
    As for Pakistan and other countries, the report emphasizes their 
importance and the urgent need to broaden nuclear arms control beyond 
the U.S.-Russian bilateral process. The report underlines the fact that 
indeed the more serious risks of instability and nuclear weapons use, 
intentionally or accidentally, lie in South Asia and other regions. It 
is critical to bring these countries into a multilateral process to 
regulate their arsenals and prevent the outbreak of nuclear conflict 
and the acquisition of nuclear materials by terrorists. The deep 
bilateral cuts proposed by the report were designed to encourage China 
to join a multilateral process, which in turn would increase pressures 
and incentives for India and Pakistan to join. I certainly agree with 
the view expressed in this question to me that Pakistan poses 
unprecedented nuclear danger that demands our full attention.
    Mr. Rogers. 41) Dr. Blair, your Global Zero report calls for 
increased reliance on missile defenses and ``passive hardening'' to 
deter or defeat a regional adversary for 24 to 72 hours. Yet, you try 
to have it both ways by capping missile defenses to not agitate Russia 
and China.
    a. Please explain what you mean by ``hardening'' and 
``sheltering''? How expensive would bomb shelters to ride out North 
Korean or Iranian missile defenses be?
    b. How many missile defense interceptors would we need to ride out 
24 to 72 hours of attacks by Iran or North Korea?
    c. How do we balance this with reducing the theater missile defense 
program by 10 to 50 percent?
    d. How do we tell NATO that we are creating ``100 exclusion 
zones,'' as you propose, concerning the deployments of our missile 
defenses? How do you expect our Eastern European NATO allies would feel 
about that?
    Dr. Blair. These important questions lie within the expertise of 
the Global Zero commission, particularly Gen. (ret.) Cartwright, but it 
is not an area that I can knowledgeably address without consulting with 
the commissioners and conducting further research.
    Mr. Rogers. 42) Dr. Blair, you state in the Global Zero report that 
we can ``remove the technical threat of a surprise U.S. nuclear first 
strike,'' correct?
    a. Is this another way of calling for a ``no first use'' policy?
    Dr. Blair. The Global Zero report does not reject the first use of 
nuclear weapons. Rather, it calls for reducing the number of strategic 
weapons that could be fired in a sudden, surprise first strike. It 
merely thwarts the potential for a surprise first use of nuclear 
weapons.
    Mr. Rogers. 43) Would you please describe China's so-called ``no 
first use'' policy? Is it as solid as some would have us believe? Why 
does that matter?
    Dr. Blair. China's long-standing policy is that its nuclear forces 
would only be employed in retaliation to a nuclear attack against 
China. It would not resort to their use in a conventional conflict as 
long as its adversary refrains from using nuclear weapons.
    China's force levels and posture reflect a commitment to `minimum 
deterrence' requiring a small number of nuclear forces capable of 
riding out a nuclear attack and striking back in retaliation against 
the aggressor. It's rejection of first use is evident in the historical 
record in which China does not marry up its nuclear weapons to its 
delivery vehicles during confrontations. It does not plan to prepare to 
employ nuclear forces in a conventional conflict even if it is losing 
on the battlefield.
    The importance of this policy is that it bolsters nuclear stability 
during a crisis or conventional war. If China is observed keeping its 
nuclear weapons out of the fray, and not increasing launch readiness, 
any adversary will be less tempted to preemptively or preventively 
attack China's nuclear forces.
    This policy historically has been very solid. The last time any 
senior official or general raised the possibility of Chinese nuclear 
first use was in 2005. This view was immediately quashed by the Chinese 
leadership and no-first-use was reiterated as China's firm position.
    There is scant evident of any cracks developing in this position 
but as China's nuclear forces are modernized and as their capabilities 
to rapidly increase launch readiness of these forces improves, the 
Chinese may be tempted to expand their options beyond the current 
minimal deterrence policy. This is one of the reasons why the Global 
Zero report seeks the inclusion of China in a multilateral process of 
arms reduction negotiations.
    Mr. Rogers. 44) Please describe China's nuclear program, China's 
aspirations as a nuclear power, and what that means for the Global Zero 
recommendations in terms of extended deterrence in that region?
    Dr. Blair. My answer above alludes to an across-the-board Chinese 
nuclear modernization program designed primarily to ensure a survivable 
deterrent force. China has a fleet of five new strategic submarines in 
various stages of construction and deployment, and a serious effort to 
deploy modern and capable mobile (truck-based) intercontinental 
rockets. Both programs serve to improve China's second-strike 
retaliatory capabilities.
    China is also strengthening its safeguards against the unauthorized 
use of nuclear weapons, a newfound confidence that may lead to 
increasing launch readiness in peacetime.
    On balance, however, China's military priorities lie in the 
conventional and space arenas with a view to `area denial' of U.S. 
conventional forces, e.g. aircraft carriers, which play a critical role 
in the defense of Taiwan. Global Zero's focus is less on the question 
of countering China's nuclear programs with countervailing U.S. nuclear 
forces than on maintaining U.S. conventional superiority in region. The 
Global Zero report emphasizes the enormous capability of the United 
States to provide extended deterrence using conventional forces alone, 
but also notes the need to invest in new conventional capabilities such 
as a conventional ICBM in order to offset Chinese conventional and 
space modernization.
    Mr. Rogers. 45) Dr. Blair: Your report, Modernizing U.S. Nuclear 
Strategy, Force Structure and Posture, states that ``Precision-guided 
conventional munitions hold at risk nearly the entire spectrum of 
potential targets, and they are useable.'' (p.2)
    Given your assertion that conventional weapons can address ``nearly 
the entire spectrum of potential targets'' addressed by nuclear 
weapons, it seems reasonable to assume that such weapons should become 
part of nuclear arms control negotiations.
    a. Do you agree? If not, why not?
    b. How many of these systems do we need to hold ``nearly the entire 
spectrum of potential targets'' at risk? How much would that cost and 
when could we deploy them?
    c. As you know, Congress, the Senate in particular, has never been 
particularly willing to fund conventional prompt global strike 
capabilities. How does our inability to develop and deploy them affect 
your illustrated reduction scenario?
    Dr. Blair. 45a) In principle, if precision-guided munitions or 
other conventional forces (or missile defenses) impact the nuclear 
balance and strategic stability, then one could argue that they should 
be included in some form of arms negotiations, either separately from, 
parallel to, or integral to nuclear arms control negotiations. In 
practice, PGMs in particular do not lend themselves to such constraints 
inasmuch as their capabilities stem primarily from information and 
intelligence processing, which cannot be meaningfully limited. 
Quantitative limits on the number of specific weapons can be 
envisioned, as can geographic deployment constraints. The achievement 
of U.S. conventional superiority is not something to be bargained away, 
however, if it lowers the nuclear threshold at which the U.S. would 
resort to nuclear weapons to compensate for losing conventional 
options.
    45b) The United States has already massively substituted 
conventional for nuclear weapons such that we can presently hold 
practically the entire spectrum of key military targets at risk in 
potentially hostile nations. Conventional forces now carry out missions 
that only nuclear forces previously could perform. For example, as my 
formal testimony asserted, U.S. tactical nuclear forces are no longer 
needed to suppress North Korea's artillery threat to Seoul. The cost of 
additional key capabilities such as conventional ICBMs requires further 
analysis.
    45c) The inability to deploy a conventional ICBM for the purpose of 
prompt global strike would mean that certain targets, e.g. Chinese ASAT 
facilities, will grow increasingly invulnerable to available U.S. 
conventional-armed forces, e.g. B-2 bombers. This means that disabling 
such facilities will require increasing numbers of U.S. bomber sorties 
at growing risk to their crews. This would also mean that the nuclear 
threshold would be lowered; in principle, the U.S. would need to resort 
to a strategic nuclear missile to disable critical targets if 
conventional forces cannot perform the mission.
    Mr. Rogers. 46) Dr. Blair: Your Global Zero report, Modernizing 
U.S. Nuclear Strategy, Force Structure and Posture, states that with 
respect to making nuclear arms reductions a ``multilateral enterprise'' 
involving states other than the United States and Russia, ``the effort 
will probably only succeed by starting with a dialogue with China and 
others on matters of transparency and verification in particular. 
Sharing information on numbers, types and locations of nuclear stocks 
is a critical first step in laying the groundwork for formal arms 
control talks.'' (pp. 3-4)
    a. Since you assert that this is a ``critical first step,'' what 
assurances can you offer that: 1) China and Russia will provide 
accurate information? And, 2) that we have, in President Reagan's 
famous phrase, the means not only to ``trust, but verify'' this 
information?
    Dr. Blair. 46a1) I cannot personally guarantee that China and 
Russia would provide accurate information, but presumably they would 
opt to refuse to provide information in the first instance if the 
alternative is to provide false information and risk getting caught.
    46a2) If the falsification of information is extensive, then U.S. 
national technical means of verification offer a reliable means of 
detecting that fact. Moreover, although our ability to detect a 
particular falsehood cannot be assured, a party contemplating 
submitting false declarations and disclosures could not be certain of 
its ability to elude detection by the other parties at the table. In 
general, the goal in the initial phase of discussions is to begin to 
define a baseline of nuclear stocks that can then be gradually 
investigated through intensified monitoring including onsite inspection 
with a view to shrinking the band of uncertainty surrounding the 
voluntarily submitted information.
    Mr. Rogers. 47) Dr. Blair: Your report, Modernizing U.S. Nuclear 
Strategy, Force Structure and Posture, states that ``Stockpiles of 500-
1,000 total weapons on each [U.S. and Russia] side are roughly the 
level at which China could be drawn into the process. As more countries 
join, it will become harder for the rest to remain on the sidelines.'' 
(p. 4)
    a. Has the Chinese Government committed to being ``drawn into the 
process'' if we reduce our nuclear forces to these levels? If they have 
not why should we assume that they will? Indeed, if this were the case 
it would seem their government would very much want to make such a 
statement as a way of incentivizing the Russians and ourselves to 
undertake further reductions--don't you agree?
    b. And, if what you assert regarding the ability of precision-
guided weaponry to substitute for nuclear weapons, wouldn't the United 
States also need to unilaterally drawn down its advantage in this area 
as well in order to have China join in the process?
    Dr. Blair. 47a) The Chinese recognize that the Global Zero movement 
coupled to further sharp reductions in U.S. and Russian nuclear 
arsenals will increase pressure on China to join a multilateral arms 
reduction negotiation. Their historical position on participation in 
such a forum goes back to the early 1980s when the Chinese foreign 
minister addressed the United Nations General Assembly and laid out the 
conditions for joining such a negotiation--including preconditions such 
as 50 percent reductions by the United States and Russia. Those 
conditions have in fact already been essentially met. However, the 
Global Zero commissioners have proposed that the next round of deep 
bilateral reductions by the U.S. and Russia be linked to China's 
acceptance of certain constraints on its nuclear arsenal--e.g. 
accepting a cap of 300 total weapons in 2022--which by the way is the 
maximum size of the Chinese arsenal projected out by a decade. (It 
currently stands at fewer than 200.)
    47b) The conventional balance between China and the U.S. and U.S. 
allies in the region is relevant to the nuclear balance and to the 
prospects of bringing China into multilateral nuclear arms 
negotiations. Negotiations may well have to be extended into the 
nonnuclear arena. The exact forum and approach to this set of issues 
needs to be carefully considered. It's uncharted territory that calls 
for creative thinking.
    Mr. Rogers. 48) Dr. Blair: Is there any evidence either now or in 
our historical experience to assume that when a country or group of 
countries engages in unilateral disarming that other countries find it 
``harder to remain on the sidelines?''
    Dr. Blair. Global Zero commissioners are not so naive as to believe 
that either unilateral or negotiated reductions will lead other 
countries to follow suit. Each nation's assessment of its strategic 
interest in acquiring, or divesting, nuclear weapons is complex and 
unique. The example set by others may have little or no influence on a 
particular nation's calculation of the purposes served by possessing 
nuclear weapons, or its determination of the desired size of its 
arsenal.
    However, the massive unilateral stockpile reductions made by the 
United States and Russia over the past two decades and negotiated deep 
reductions proposed by Global Zero for the next decade strengthen their 
hands in trying to persuade China and others--including key nonnuclear 
states--to become stakeholders in nuclear arms control. It assists 
diplomats in making the case for, and exerting pressure on, the hold-
outs to join the process. The historical disarmers--South Africa and 
the four former Soviet republics that surrendered them--along with 
major nations that abandoned their nuclear weapons programs such as 
Brazil and Argentina--reinforce this pressure.
    Mr. Rogers. 49) Dr. Blair, have you had any conversations with the 
White House about the so-called Nuclear Posture Review Implementation 
Study? a. When? b. What have you been told? c. Are you aware of what 
options they have been considering? Can you enlighten this 
subcommittee? We have been completely shut out of this process.
    Dr. Blair. 49a,b,c) I have not had any direct conversations with 
the White House about any details of the NPR Implementation Study. My 
understanding is that several reduction options under consideration 
ranged from a high of 1,000-1,100 deployed strategic weapons to be 
implemented over a period of 5 years, to a mid-range of 700-800 such 
weapons over a 10-year drawdown, to a low of 300-400 such weapons 
within 15 years. These cuts and other reductions of nondeployed nuclear 
warheads would constitute an overall cut of 50 percent of the overall 
stockpile. The de-alerting options included one that would reduce the 
launch-readiness of U.S. strategic forces and require 48 hours to bring 
them to immediate launch-ready status.
    One idea put forward in the internal process would have all of 
these options linked together in a time-phased reduction over a 15-year 
period, and to incorporate the phased reductions into the forthcoming 
Presidential Decision Directive (i.e., Presidential Nuclear Guidance) 
so that future cuts would be pursued by succeeding presidents unless a 
new Nuclear Posture Review were conducted and new presidential nuclear 
guidance issued to halt the drawdown. I expect that otherwise the 
forthcoming PDD on nuclear forces will not depart significantly from 
past guidance in terms of targeting and related force posture matters. 
I expect it to endorse the Triad, the launch on warning option, the 
first-use option, the requirement to be able to conduct full-scale 
nuclear operations against Russia and China simultaneously, and holding 
at risk WMD forces, leadership, and war-supporting industries in 
Russia, China, North Korea, Iran and Syria. I expect it will end the 
targeting of chemical facilities in Russia and China, though perhaps 
not such facilities in Syria. I also expect that it may assign missile 
defenses the task of defeating limited nuclear missile strikes by 
Russia or China.
    Mr. Rogers. 50) The President said at the State of the Union 
address last month that, ``we will engage Russia to seek further 
reductions in our nuclear arsenals . . . because our ability to 
influence others depends on our willingness to lead.''
    a. Dr. Blair, would you please explain just who has been following 
the President's leadership? Put another way, with our unilateral 
reductions under the New START treaty, who has followed us in reducing? 
As you know, Russia was already below two of the three ``central 
limits'' of the New START treaty upon entry into force of the treaty.
    Dr. Blair. This statement from the State of the Union address 
reflects the historical reality that the United States has been the 
strong leader in the instigating nuclear arms reduction negotiations 
and other nuclear security efforts such as the Nunn-Lugar program. 
Regarding the New START Treaty, President Obama took the lead in 
starting those negotiations with former President Medvedev and he now 
is enlisting President Putin's support for starting the next round. 
Within the context of the New START reductions schedule, Russia has 
taken the lead in the sense that it is ahead of the required drawdown 
schedule, and the United States is following this lead.
    Mr. Rogers. 51) Dr. Blair, in the recent Global Zero report, it was 
stated that ``this illustrative agenda with its deep cuts and de-
alerting would strongly validate the Non-Proliferation Treaty and help 
preserve it in the face of challenges by North Korea, Iran and other 
prospective proliferators.''
    a. Can you describe in detail, and with specificity, how further 
nuclear reductions by the United States and Russia (if Russia is 
interested) will strengthen the Non-Proliferation Treaty and deal with 
the nuclear threats of Iran and North Korea? Specifically, what will 
other states (be specific as to which states) do to stop the spread of 
nuclear weapons if we only reduce our nuclear weapons further.
    Dr. Blair. By ratifying the NPT, the United States and Russia 
assumed a legal obligation to reduce and eventually eliminate their 
nuclear arms--the disarmament pillar of the Treaty. It is an obligation 
under international law that cannot be ignored. The nonnuclear weapons 
signatories of the NPT also expect the nuclear weapons states to 
undertake other steps related to nuclear disarmament such as ratifying 
the CTBT and lowering the launch readiness of nuclear forces.
    To the extent that the United States, Russia and other nuclear 
weapons states demonstrate their commitment to the NPT disarmament 
agenda through deep cuts and de-alerting and other steps, the greater 
the onus on the nonnuclear weapons states to remain nonnuclear and the 
greater their commitment to the enforcement of the NPT--e.g., 
preventing Iran from acquiring nuclear weapons and rolling back North 
Korea's weapons capabilities. Without this backing from the nonnuclear 
weapons countries, the risks of proliferation will grow.
    Mr. Rogers. 52) Dr. Blair: Do you agree with the finding of the 
2010 Nuclear Posture Review that ``fundamental changes in the 
international security environment in recent years--including the 
growth of unrivaled U.S. conventional military capabilities, major 
improvements in missile defenses, and the easing of Cold War 
rivalries--enable us to fulfill those objectives at significantly lower 
nuclear force levels and with reduced reliance on nuclear weapons''?
    a. So how do the Budget Control Act and Sequestration change this 
calculus? Combined, we are spending $1 trillion less over a decade on 
procurement, acquisition, operations and maintenance. For example, we 
can't sortie or refuel aircraft carriers under the President's 
sequester. Doesn't this mean, if the logic of the NPR holds true, that, 
the assumption we can rely on our conventional capabilities and 
conventional deterrent, should be reconsidered?
    Dr. Blair. The defense budget cuts under the sequester affect both 
nuclear and conventional forces to a degree that is difficult to gauge 
at this time. If U.S. conventional capabilities erode significantly as 
a result, then U.S. reliance on nuclear options could well grow 
somewhat. The major determinant of this reliance, however, will likely 
be the international security environment and U.S. security relations 
with Russia and China. If these relations continue to improve, leading 
for instance to stronger regional security and peace in Asia, then the 
United States will require less conventional and nuclear capabilities.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER

    Mr. Cooper. 53) Have improvements to yield or accuracy in reaching 
targets changed the targeting requirements and/or reduced the number of 
nuclear weapons required?
    Dr. Payne. I cannot comment on U.S. plans for nuclear targeting. It 
is however, a mistake to believe that weapon requirements to meet 
targeting plans are the same as the requirements necessary for 
deterrence. U.S. targeting plans and the weapons required to support 
those plans can be revised by the appropriate U.S. process. But, 
deterrence requirements are determined by the opponent's calculations 
and the composition of the opponent's most highly valued assets. The 
number, lethality and diversity of U.S. weapons necessary to threaten 
those assets set the requirements for deterrence. These requirements 
may or may not be reflected in U.S. targeting plans. For deterrence 
purposes, U.S. targeting plans must be determined by the composition of 
opponents' most highly valued assets and the forces necessary to hold 
them at risk, not the number of weapons preferred by the political 
leadership for other purposes.
    Mr. Cooper. 54) How can we reduce the risk of miscalculation in a 
crisis?
    Dr. Payne. We can reduce the risk of miscalculation in a crisis by 
having, prior to a crisis, the most realistic, clear-eyed understanding 
possible of the opponent and context and multiple channels of 
communication with the opponent. In the midst of a crisis, reliable 
communication and mutual understanding between contending parties is 
unlikely, but may be aided by a solid foundation of long-standing 
mutual understanding and communication prior to the crisis. Achieving 
such a level of understanding and communication demands a long-term, 
multidisciplinary intelligence and diplomatic undertaking vis-a-vis 
each prospective antagonist. In addition, strategic defenses may help 
to protect against miscalculation and the possible failure of 
deterrence by providing a defensive response to apparent threats rather 
than offensive actions. The role of U.S. missile defense in the context 
of recent North Korean nuclear missile launches and threats is an 
example of this benefit.
    Mr. Cooper. 55) What are the risks and benefits of having ICBMs on 
high-alert?
    Dr. Payne. The benefits of having ICBMs on high-alert include 
giving the President as much time as possible to assess an evolving 
crisis and to use that time prudently before making a decision in a 
high stress situation. In addition, no potentially provocative and 
time-consuming realerting steps are required that an adversary might 
observe and take as a sign of an imminent attack by the United States. 
Keeping the ICBM force on high alert, which is relatively inexpensive, 
avoids the need to increase force readiness during a crisis and the 
danger that a de-alerted force could tempt an enemy's first strike 
strategy by presenting a target set that is easier to strike than would 
otherwise be the case. Also, the current number of ICBM silos and alert 
rate may help afford the option of launch under attack rather than a 
launch on warning strategy, which I consider to be dangerous. In 
general, alert ICBMs are ``stabilizing.''
    In addition, an alert ICBM force contributes to the assurance of 
allies, while a de-alerted force would be a source of allied concern. 
This concern is understandable: allies, who rely on the U.S. extended 
nuclear deterrence for their protection against nuclear or biological 
attack are unlikely to find great assurance in a U.S. deterrent threat 
that is unable to respond to a horrific attack for 72 or more hours. 
Telling U.S. allies under nuclear or other WMD attack that they would 
need to wait three days for the U.S. deterrent is unlikely to inspire 
allied confidence in the U.S. nuclear umbrella. This situation would 
likely encourage some allies to seek their own independent deterrent 
capabilities.
    As to the risk, reported safeguards in the command and control for 
ICBMs--the use of authorization codes, the two-person rule, and dual 
phenomenology for tactical attack warning, for example--reduce the risk 
of unauthorized or accidental missile launches. I agree with former 
USSTRATCOM Commander, Adm. Richard Mies on this issue. In the spring of 
2012, he wrote `` . . . the oft-cited characterization that our 
strategic forces are on 'hair trigger' alert is a scare tactic 
routinely used to justify proposals to lessen the potential 
responsiveness of our strategic forces. In fact, multiple stringent 
procedural and technical safeguards are in place to guard against 
accidental or unauthorized launch and to ensure the highest levels of 
nuclear weapon safety, security, reliability, and command and 
control.'' (ref: Undersea Warfare, Spring 2012, p. 17)
    Mr. Cooper. 56) What kind of nuclear force structure do you believe 
we should have today, if we could choose the ideal force structure 
today, rather than relying on legacy force structure?
    Dr. Payne. To support U.S. deterrence and extended deterrence 
purposes, the U.S. nuclear force structure should be survivable, 
flexible, diverse and resilient, and thus adaptable to a wide spectrum 
of prospective deterrence contexts and requirements. As such, it should 
enable the President to adjust U.S. declared deterrence threats to the 
specific types and numbers of targets demanded by a diverse and 
shifting line up of opponents and contexts. It also should provide the 
President with numerous types of limited threat options to help 
minimize any prospective use of force should deterrence fail initially. 
A great advantage of the traditional U.S. nuclear triad is that it 
helps to provide this type of survivable, flexible and diverse force 
structure, as can multiple warhead types capable of holding at risk a 
wide spectrum of prospective targets. The force structure also should 
be highly survivable to help preclude any opponent from seeing possible 
advantage in striking at U.S. deterrent forces.
    The U.S. strategic force structure also should include active and 
passive defensive capabilities to help reduce U.S. casualties and limit 
damage in the event deterrence fails.
    To support U.S. assurance goals, the force structure should possess 
the lethality, quantity, and qualities that provide assurance to key 
allies. Some allies have identified these characteristics from their 
unique perspective, including:
        <bullet>  An arsenal that is at least capable in size and scope 
        to Russia's strategic and tactical nuclear arsenal;
        <bullet>  Nuclear forces that are deployed permanently to their 
        region or on their territory;
        <bullet>  Nuclear forces that are rapidly deployable to their 
        region;
        <bullet>  Forces that can be deployed discreetly or with great 
        visibility, as best fits the deterrence occasion; and,
        <bullet>  Warhead designs that include very low-yield and 
        earth-penetrating options.
    Finally, U.S. forces should be well-protected and under positive 
and enduring political control to help ensure no theft or unauthorized 
use. Similarly, it should help provide the President with the maximum 
amount of decision time possible to help preclude any pressure toward a 
rush to employment.
    Mr. Cooper. 57) Has Russia reciprocated in the past when the United 
States has pursued ``unilateral'' reductions? What are the risks and 
benefits of the Presidential Nuclear Initiatives (PNIs) as a way to 
pursue reciprocal reductions?
    Dr. Payne. The Obama administration recently unilaterally 
eliminated U.S. TLAM-N (nuclear-armed cruise missiles) systems, despite 
concerns expressed by a key ally, without any apparent reciprocation by 
Russia. Russia committed to the 1990-1991 PNIs. These include specific 
restrictions on tactical nuclear weapons. However, Russia, according to 
its own official statements, is in violation of its PNI commitments.
    The primary risk of such attempted reciprocal reductions is that 
the U.S. will consider such reductions to be prudent on the mistaken 
presumption that Russia would agree to them and abide by its 
commitment. Russia may agree to reciprocal reductions, but not abide by 
that commitment. This is the result already seen with the earlier PNIs.
    Mr. Cooper. 58) What are your thoughts on more cost-effective 
alternatives for U.S. nuclear deterrence that could assure our allies 
of the U.S. strong commitment to nuclear umbrella, given the $8-10 
billion cost for the life extension program of the B-61 nuclear bomb? 
Is there value in opening a dialogue with NATO countries on potential 
cost-effective measures for ensuring strong and reliable extended 
deterrence?
    Dr. Payne. There certainly is value in continuing dialogue within 
the NATO alliance regarding the requirements for deterrence and 
assurance. The recent consensus NATO document on the subject publicly 
endorsed continuation of the dual capable aircraft (DCA)/B-61 posture 
and committed the alliance to consensus decisions on this matter. It 
certainly is reasonable to demand that the B-61 LEP cost be reduced to 
the extent feasible. However, given the established alliance 
infrastructure for this system, and its general acceptance with the 
alliance, I do not know of any plausible alternative posture that would 
obviously be less costly and also meet alliance-wide deterrence and 
assurance requirements. Identifying alternatives to the DCA/B-61 
posture is not a challenge. But identifying alternative postures that 
could satisfy NATO deterrence and assurance requirements, and do so 
more cost-effectively, is the material question.
    Mr. Cooper. 59) Dr. Payne: You noted in your disclosure form that 
you were appearing in an individual capacity and thus did not provide 
any information on Federal grant contracts (the other witnesses 
provided this information with Dr. Krepinevich listing his 
organization's grant contracts, and Dr. Blair noting he did not receive 
any). Please list the Federal grant contract information sought on the 
disclosure form (Federal grants for FY2011-2013 and Federal contract 
information, including number of contracts with the Federal Government, 
Federal agencies with which the contracts are held, list of subjects of 
the contracts, and aggregate dollar value of these contracts), relating 
to the National Institute for Policy and Public Policy (of which you 
serve as President and co-founder).
    Dr. Payne. As noted in the question, I appeared in an individual 
capacity. Indeed, in my opening remarks I stated specifically that the 
views I presented were my own and not those of any institution with 
which I am affiliated. As such, I will reply as did Dr. Blair and 
report that I have no Federal grants or contracts and had none in FY 
2011 or FY 2012.

    Mr. Cooper. 60) Have improvements to yield or accuracy in reaching 
targets changed the targeting requirements and/or reduced the number of 
nuclear weapons required?
    Dr. Krepinevich. The answer to this question depends on classified 
information--in particular information on our existing nuclear 
capabilities and targeting strategies, as well as the capabilities and 
strategies of potential adversaries. What can be said, however, is that 
advances in accuracy generally contribute to increased counterforce 
capabilities, or the ability to target enemy military forces and 
infrastructure. Nevertheless, improved accuracy can be offset in 
several ways by a determined adversary; for instance by increasing the 
mobility of potential targets, hardening potential targets, or fielding 
``active'' defenses such as counter-air and antiballistic missile 
systems. In short, improved accuracy can have an important but not 
necessarily an enduring effect on force structure requirements and 
strategy. There will always be a dynamic competition under way between 
the U.S.'s ability to hold at risk targets that an opponent values and 
efforts by opponents to better defend those targets from attack.
    Mr. Cooper. 61) How can we reduce the risk of miscalculation in a 
crisis?
    Dr. Krepinevich. In general, the likelihood of miscalculation 
during a crisis is influenced by several factors: first, how accurately 
a nation understands its rival's decision calculus, namely how that 
rival calculates cost, benefit, and risk; second, the ability to 
communicate threats, demands, and promises clearly; and third, the 
nation's ``track record,'' or its reputation for upholding its past 
commitments. To the extent that the United States can reduce the risks 
of miscalculation, therefore, it should make a dedicated effort to 
better understand potential opponents, take steps to ensure that clear 
lines of communication are available even during periods of heightened 
tension; and make good on its threats to take action when an adversary 
crosses its ``red lines.''
    Mr. Cooper. 62) What are the risks and benefits of having ICBMs on 
high-alert?
    Dr. Krepinevich. According to open-sources, the United States 
maintains the overwhelming majority of its ICBMs on high-alert status, 
meaning they can be launched almost immediately after (or upon 
unambiguous warning of) an attack. Traditionally, the prompt response 
capability of the ICBM force has contributed to deterrence by providing 
added certainty that an aggressor would suffer an immediate and 
devastating retaliation. Today, however, the prospect of a massive 
``bolt from the blue'' attack appears remote, which has led some to 
argue that ICBMs should be ``de-alerted.'' Proponents of changing the 
alert status of the ICBM force also maintain that the dangers of 
unauthorized use and miscalculation are far too high; namely, missiles 
might be launched absent orders from the national command authority 
(NCA), or the NCA might be compelled to launch an immediate reprisal in 
response to ambiguous indicators and warnings, respectively. There are, 
however, several reasons to be skeptical about the virtues of de-
alerting. First, multiple procedures are in place to guard against 
unauthorized use. Most importantly, launching ICBMs requires 
authenticating launch codes that can only be authorized by the NCA. 
Second, the miscalculation argument essentially suggests that because 
the United States can launch its ICBMs in a matter of minutes, it might 
do so. It is far more likely, however, that the United States would 
adopt a retaliatory (rather than launch on warning) posture, except in 
response to a massive and unambiguous nuclear attack. In sum, de-
alerting ICBMs would likely have a minimal impact on strategic 
stability, and could have a negative impact on deterrence.
    Mr. Cooper. 63) What kind of nuclear force structure do you believe 
we should have today, if we could choose the ideal force structure 
today, rather than relying on legacy force structure?
    Dr. Krepinevich. Despite the fact that today's nuclear force 
structure is a legacy of the Cold War, in many ways it remains well 
suited to meeting current and prospective security challenges. In 
particular, even if it were possible to design a new force structure 
from scratch, the triad of strategic delivery systems that has 
underpinned nuclear deterrence for half a century is still highly 
relevant given the unique attributes of each leg. The ballistic missile 
submarine (SSBN) fleet, for example, provides an extremely survivable 
and responsive retaliatory capability; the bomber force offers a high 
degree of visibility and flexibility; and the ICBM force creates a 
targeting problem for any potential opponents contemplating a first 
strike, because they would have to expend a large number of nuclear 
weapons to neutralize a relatively small portion of the U.S. nuclear 
arsenal. To the extent that planned modernization initiatives proceed, 
therefore (most importantly fielding a new long-range bomber, 
developing a successor to the Ohio class SSBN, and continuing life-
extension programs to maintain the viability of the Minuteman III 
ICBM), the United States can retain a highly capable nuclear arsenal 
well into the future.
    Mr. Cooper. 64) Has Russia reciprocated in the past when the United 
States has pursued ``unilateral'' reductions? What are the risks and 
benefits of the Presidential Nuclear Initiatives (PNIs) as a way to 
pursue reciprocal reductions?
    Dr. Krepinevich. The unilateral nuclear reductions announced by 
President George H.W. Bush in 1991, aimed at reducing the U.S. arsenal 
of forward-deployed tactical nuclear weapons, symbolized the dramatic 
change that had taken place in U.S.-Soviet relations at the end of the 
Cold War. Although Mikhail Gorbachev (and subsequently Boris Yeltsin) 
pledged to respond in kind, there are reports that Moscow has not 
upheld its commitment to destroy certain classes of tactical nuclear 
warheads. To what extent, then, might these unilateral initiatives 
provide a basis for reciprocal U.S. and Russian nuclear reductions in 
the future? In general, two observations are worth making. First, there 
is an inherent dilemma in unilateral reductions of any kind. On the one 
hand, small, symbolic reductions intended to demonstrate good faith and 
encourage reciprocity are rarely meaningful in a military sense, and 
therefore may not lead others to follow suit. On the other hand, the 
large, meaningful reductions that might be necessary to encourage 
reciprocity can be quite dangerous if others choose not to respond in 
kind. This dilemma makes the notion of unilateral, reciprocal 
reductions a difficult model for informal arms control. Second, 
unilateral reductions--particularly unilateral reductions in tactical 
nuclear weapons that do not have large signatures--can be difficult to 
monitor and verify, because they lack the enforcement provisions 
contained in formal arms control agreements.
    Mr. Cooper. 65) How can further nuclear weapons reductions beyond 
New START strengthen national and security?
    Dr. Krepinevich. Perhaps the only way that further nuclear 
reductions beyond the levels outlined in New START would unambiguously 
strengthen U.S. national security is if they were multilateral in scope 
(i.e., if all existing and prospective nuclear powers participated), 
made in such as way as to preserve the United States' existing 
quantitative and qualitative advantages relative to other nuclear 
powers (e.g., through proportional reductions), and rigorously 
verifiable. Beyond this extremely unlikely set of conditions, any 
future reductions are likely to be so small that their impact on U.S 
national security (for better or worse) would be marginal, or so large 
that they would raise legitimate concerns that U.S. national security 
would be harmed more than helped.
    Mr. Cooper. 66) What are your thoughts on more cost-effective 
alternatives for U.S. nuclear deterrence that could assure our allies 
of the U.S. strong commitment to nuclear umbrella, given the $8-10 
billion cost for the life extension program of the B-61 nuclear bomb? 
Is there value in opening a dialogue with NATO countries on potential 
cost-effective measures for ensuring strong and reliable extended 
deterrence?
    Dr. Krepinevich. Although the cost of the B-61 life extension 
program is substantial, it is important to note that the purpose of 
this effort is not solely to preserve our nuclear guarantees to NATO 
partners. Specifically, this program seeks to modernize tactical 
nuclear weapons delivered by dual-capable combat aircraft (which 
underpin extended nuclear deterrence in Europe) and strategic nuclear 
weapons delivered by dual-capable bombers.

    Mr. Cooper. 67) Have improvements to yield or accuracy in reaching 
targets changed the targeting requirements and/or reduced the number of 
nuclear weapons required?
    Dr. Blair. Improvements in the accuracy of U.S. nuclear weapons 
have increased their lethality and enabled U.S. planners to decrease 
the yield of the weapons and the number of weapons aimed at the same 
target. However, the dominant factor today in reducing the number of 
U.S. warheads required to cover the target set--apart from the steady 
reduction in the size of the Russian nuclear arsenal, which shrinks the 
target set--is the revolutionary improvement in surveillance and 
intelligence collection. For instance, better intelligence on the 
target set such as on the entryways to hardened command bunkers has 
reduced the number of aimpoints and reduced the number of U.S. weapons 
assigned to strike such targets. Similarly, to the extent that the 
location of mobile missiles in the field (out of garrison) in Russia 
and China can be pinpointed through real-time surveillance, then the 
fewer weapons required to barrage the area to offset the `position 
location uncertainty' of the mobile targets.
    One of the other main factors today in setting requirements and 
allocating warheads is the reliability of the U.S. strategic missile 
force. For instance, U.S. planners are generally forced to assign two 
warheads to attack each opposing nuclear missile silo in order to 
ensure that one of them arrives on target if the other one proves 
unreliable.
    Mr. Cooper. 68) How can we reduce the risk of miscalculation in a 
crisis?
    Dr. Blair. The best way to reduce the risk of miscalculation in a 
crisis is to improve warning and intelligence, and above all to 
increase the amount of warning and decision time. Under the current 
U.S. nuclear posture, which depends on launch on warning in the event 
of a large-scale Russian attack, the time allowed for information 
processing and decisionmaking from the top to the bottom of the chain 
of nuclear command would be measured in minutes and seconds. Emergency 
war order (EWO) decisionmaking and execution are driven by checklists 
and such short deadlines that the process is aptly characterized as the 
enactment of a prepared script. The risks of premature intentional 
launch, launch on false warning, mistaken launch based on erroneous 
intelligence and warning, and unauthorized launch remain very real 
today.
    The Global Zero report chaired by Gen. (ret.) Cartwright and co-
authored by then-Senator Hagel addressed this issue by recommending 
that U.S. and Russian missiles be taken off of launch-ready alert. De-
alerting steps would be adopted that require 24-72 hours to reverse. 
The amount of warning and decision time would thus be increased from 
minutes to days.
    Mr. Cooper. 69) What are the risks and benefits of having ICBMs on 
high-alert?
    Dr. Blair. The risks of having ICBMs on high-alert are numerous. 
First, they create `use or lose' pressures on the national command 
authorities on both sides because neither U.S. nor Russian missiles (in 
silos, in garrison garages, or hiding in the field in the case of 
dispersed mobile ICBMs) could survive an attack by the opposing side 
unless they are launched on warning of incoming warheads minutes before 
the warheads arrive. The pressures exerted on the President and the 
rest of the chain of command would be severe and would increase the 
risks of an inadvertent nuclear exchange. In projecting a crippling 
first strike threat at each other, these forces inject instability into 
a crisis.
    ICBM launch circuits may also be vulnerable to cyber warfare. ICBMs 
on high alert are ready to fire in seconds and only need to receive a 
short stream of computer signals to cock their warheads, ignite their 
rocket motors, and blast out of their silos. Keeping them on hair-
trigger alert in an era of sophisticated cyber warfare invites 
catastrophe. The Russian rockets are also kept at instant launch 
readiness. At a recent Senate hearing, the current head of Strategic 
Command was asked whether cyber hackers could trigger a Russian rocket 
launch, whose aimpoint might be New York City. His answer: I don't 
know. With the help of insiders in possession of passwords and other 
codes, it is likely that the firewalls sealing off the launch circuits 
of both countries' nuclear missiles could be breached.
    ICBMs and their launch centers and crews are themselves sitting 
targets for terrorists or others to attack or infiltrate. Launch crews 
routinely ignore a cardinal nuclear safety and security rule: the 
multiton blast door protecting the underground center may not be opened 
by a crew member when the other is sleeping. That rule is fudged when, 
for instance, a crew member calls topside for a thermos of coffee to 
stay awake while his or her crewmate snoozes during the 24-hour alert 
stint.
    This transgression might help enable outsiders to gain access to 
the launch center, and to its super-secret codes, the result of which 
would be an increase in the risk of unauthorized launch or of 
compromising critical codes whose wholesale invalidation might become 
necessary to prevent unauthorized launches. Such invalidation might 
effectively neutralize for an extended period of time the entire U.S. 
strategic nuclear arsenal and the President's ability to launch 
strategic forces while the Pentagon scrambles to reissue new codes.
    As for the benefits of keeping ICBMs on high-alert, one may be 
their responsiveness and potential ability to be fired so quickly than 
an adversary could not be confident in delivering a knock-out punch to 
the opponent's ICBM force. However, as noted above, the flip side of 
the `benefit' are the liabilities associated with having to fire these 
forces quickly by necessity lest incoming warheads destroy them on the 
ground. All these scenarios apply to a U.S.-Russian exchange only, 
which is the least plausible scenario today. U.S. ICBMs would have to 
fly over Russia to reach targets in other countries--China, Iran, North 
Korea. These polar routes are to be avoided. Thus the ICBMs high launch 
readiness offers scant benefit in confrontations with any other country 
besides Russia.
    Mr. Cooper. 70) Dr. Blair: You noted in your testimony the 
discovery in the 1990s of an electronic back door to the Naval 
Broadcast network that could have been exploited by outside hackers to 
inject a launch order into the VLF (Very Low Frequency) radio network 
used to transmit launch directives from the Pentagon to Trident 
ballistic missile submarines on launch patrol. How was this discovered 
and what is the risk and consequence of adversaries finding and using a 
vulnerability of the command and control system?
    Dr. Blair. The discovery of an electronic back door to the Trident 
force was discovered during an intensive investigation in the mid-1990s 
by a nuclear fail-safe commission headed by the late Amb. Jeanne 
Kirkpatrick. Dozens of deficiencies that increased the risk of 
unauthorized use of nuclear weapons were discovered by this commission, 
leading to significant strengthening of safeguards--e.g. new locks 
installed on Trident launching components, and new protocols for 
Trident crews to authenticate launch orders.
    The risks and consequences of adversaries exploiting deficiencies 
in nuclear command and control systems essentially boil down to two 
general dangers. First, an unauthorized actor--a state or even a group 
or individual--could inject false missile attack warning information or 
a launch order itself into the communications network and trick 
commanders into ordering or carrying out a launch. Second, the 
penetration of the nuclear command control system could compromise the 
codes used to arm and fire nuclear weapons, and the resulting 
invalidation of the codes could thwart the ability of the President to 
command the U.S. nuclear arsenal. Both of these general dangers would 
be significantly aggravated if a corrupt `insider' assisted outsiders 
in breaching the command, control, communications, and early warning 
networks.
    Mr. Cooper. 71) What kind of nuclear force structure do you believe 
we should have today, if we could choose the ideal force structure 
today, rather than relying on legacy force structure?
    Dr. Blair. The Global Zero Nuclear Policy Commission report 
``Modernizing U.S. Nuclear Strategy, Force Structure, and Posture'' 
(May 2012) outlines a nearly optimal nuclear force structure and 
posture for the next decade. The force structure would consist of 900 
total weapons. It utilizes legacy forces such as Trident SSBNs and B-2 
strategic bombers that would contribute to U.S. national security and 
to strategic stability, and it eliminates legacy forces such as 
Minuteman ICBMs, B-52 strategic nuclear bombers and tactical nuclear 
weapons that contribute less. The commission also recommends 
diversifying the U.S. deterrent forces to include missile defenses and 
a conventional ICBM. The ideal force structure would improve upon some 
of the features of retained legacy forces, but mainly it would provide 
for much longer warning and decision time, and would greatly reduce the 
risks of inadvertent launch stemming from today's extremely short 
warning and decision times. Security and stability in the nuclear arena 
stem more from strong command and control systems than from the size 
and technical characteristics of the forces.
    Mr. Cooper. 72) Has Russia reciprocated in the past when the United 
States has pursued ``unilateral'' reductions? What are the risks and 
benefits of the Presidential Nuclear Initiatives (PNIs) as a way to 
pursue reciprocal reductions?
    Dr. Blair. It is important to remember that the vast majority of 
nuclear cuts during the nuclear era--75 percent reductions in U.S. and 
Russian stockpiles since their peak of 70,000 weapons in the mid-
1980s--were made unilaterally by both sides. No arms agreements ever 
regulated the size of their total stockpiles. START agreements have 
only covered one category of weapon--deployed strategic--which 
represented a fraction of the total stockpiles. So both countries 
pursued unilateral stockpile reductions in parallel, without 
verification provisions for the most part, and this informal reversal 
of the nuclear arms race should be recognized as having contributed 
hugely to the vast reductions on both sides.
    PNIs were a part of this informal process though they were more 
specific in the sense that the parties pledged to eliminate and reduce 
some specific categories of weapons. They contributed to a dramatic 
reduction in overall stockpile sizes even though some weapons that the 
Russians pledged to eliminate did apparently remain in their arsenal. 
This discrepancy has generated accusations of Russian cheating that has 
spoiled the otherwise positive effects of these parallel reciprocal 
measures. Without a `contract' agreement between the parties and 
verification provisions, PNIs are susceptible to misinterpretation, 
ambiguous compliance, and political strains.
    One of the great benefits of the 1991 PNIs was the speed with which 
they were informally adopted and carried out. It took months rather 
than many years to downsize the arsenals under the PNIs. It is 
important to keep in mind that the main purpose of the 1991 PNIs was to 
improve the security of Russian nuclear weapons by giving President 
Gorbachev an excuse to return Russia's far-flung tactical weapons to 
Russia, and to consolidate them at storage locations that strengthened 
security over them. The goal was not to slash the size of the arsenals 
so much as to prevent them from falling into the hands of neighboring 
states or terrorists.
    Mr. Cooper. 73) How can further nuclear weapons reductions beyond 
New START strengthen national and security?
    Dr. Blair. Further nuclear arms reductions beyond New START can 
serve U.S. national security interests in innumerable ways, beginning 
with the fact that fewer weapons in Russia mean fewer possibilities for 
inadvertent or unauthorized nuclear strikes against the United States 
and potentially less damage if such strikes occurred. More importantly, 
further reductions that draw China and other nuclear weapons states 
such as Pakistan and India into negotiations to cap, reduce, or 
otherwise constrain their arsenals would bring stability and regulation 
to dangerous regions of the world, and help thwart further 
proliferation and nuclear terrorism. It is critical to bring these 
other states to the negotiating table. The alternative is further 
proliferation, growing arsenals, new nuclear arms races, and growing 
risks of an intentional or unintentional outbreak of nuclear violence. 
It is manifestly in the U.S. national interest to prevent such 
outcomes, and multilateral cooperation involving all the nuclear 
weapons states including those outside of the NPT (Pakistan, India, and 
Israel) in constraining nuclear arms is critical to preventing a 
nuclear catastrophe that deeply undermines U.S. and international 
security.
    Mr. Cooper. 74) What are your thoughts on more cost-effective 
alternatives for U.S. nuclear deterrence that could assure our allies 
of the U.S. strong commitment to nuclear umbrella, given the $8-10 
billion cost for the life extension program of the B-61 nuclear bomb? 
Is there value in opening a dialogue with NATO countries on potential 
cost-effective measures for ensuring strong and reliable extended 
deterrence?
    Dr. Blair. I doubt whether America's allies' perception of the U.S. 
commitment to their defense depends at all on the status of the B-61 
life extension program. Our NATO allies have the guarantee of NATO-wide 
protection led by the United States and her overwhelming conventional 
superiority backed up by a strategic nuclear capability capable of 
deterring any rational leader. Reallocating the $10 billion earmarked 
for B-61 LEP to shoring up U.S-NATO conventional capabilities during a 
time of defense budget austerity might do more to reassure the allies. 
This is an important topic for dialogue with America's allies.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
